<html>
<title> - HIGH SCHOOL/COLLEGE DUAL ENROLLMENT PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
52-241 PDF

                                 ______

2009

                          HIGH SCHOOL/COLLEGE
                        DUAL ENROLLMENT PROGRAMS

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN FLINT, MI, SEPTEMBER 18, 2009

                               __________

                           Serial No. 111-31

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                  U.S. GOVERNMENT PRINTING OFFICE
52-241                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Donald M. Payne, New Jersey          Michael N. Castle, Delaware,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Rush D. Holt, New Jersey             Thomas E. Petri, Wisconsin
Susan A. Davis, California           Peter Hoekstra, Michigan
Raul M. Grijalva, Arizona            Mark E. Souder, Indiana
Joe Sestak, Pennsylvania             Vernon J. Ehlers, Michigan
David Loebsack, Iowa                 Judy Biggert, Illinois
Mazie Hirono, Hawaii                 Todd Russell Platts, Pennsylvania
Jared Polis, Colorado                Cathy McMorris Rodgers, Washington
Pedro R. Pierluisi, Puerto Rico      Rob Bishop, Utah
Gregorio Sablan, Northern Mariana    Bill Cassidy, Louisiana
    Islands                          Tom McClintock, California
Lynn C. Woolsey, California          Duncan Hunter, California
Ruben Hinojosa, Texas
Dennis J. Kucinich, Ohio
Jason Altmire, Pennsylvania
Dina Titus, Nevada
Judy Chu, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 18, 2009...............................     1

Statement of Members:
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas.............................................     4
    Hirono, Hon. Mazie, a Representative in Congress from the 
      State of Hawaii............................................     5
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     2
        Additional submission:
            Princinsky, Dr. Julianne T., president, Baker 
              College, prepared statement of.....................    47
    Payne, Hon. Donald M., a Representative in Congress from the 
      State of New Jersey........................................     3

Statement of Witnesses:
    Brooks, John Otis II, 5th year Mott Middle College High 
      School student.............................................    17
        Prepared statement of....................................    19
    Lotfi, Vahid, Ph.D., interim provost and vice chancellor for 
      academic affairs, University of Michigan-Flint.............    10
        Prepared statement of....................................    12
    Shaink, M. Richard, Ph.D., president, Mott Community College.    14
        Prepared statement of....................................    16
        Additional submissions:
            Table: ``Minority Growth Overtime for Mott Middle 
              College High School''..............................    44
            Quantitative results charts..........................    45
    Skorcz, Stephen, MPH, FACHE, president and CEO, Greater Flint 
      Health Coalition...........................................    20
        Prepared statement of....................................    20
    Svitkovich, Thomas, Ed.D., superintendent, Genesee 
      Intermediate School District...............................     7
        Prepared statement of....................................     9
    Webb, Dr. Michael, associate vice president, Early College 
      High School Initiative, Jobs for the Future, Early College 
      High School Initiative Student Information System..........    22
        Prepared statement of....................................    23

 
                          HIGH SCHOOL/COLLEGE
                        DUAL ENROLLMENT PROGRAMS

                              ----------                              


                       Friday, September 18, 2009

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 1:12 p.m., at 
the Northbank Center Ballroom, University of Michigan, 432 
North Saginaw Street, Flint, Michigan, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Payne, Hirono and 
Hinojosa.
    Staff Present: Lillian Pace, Policy Advisor, Subcommittee 
on Early Childhood, Elementary and Secondary Education.
    Chairman Kildee. A quorum being present, the hearing of the 
subcommittee will come to order. I would like to make an 
opening statement and then call upon my colleagues for that, 
but I want to point out that this panel is a great 
representation of America. We have, first of all, Donald Payne, 
my seat mate from New Jersey, an African-American. We have 
Ruben Hinojosa from Texas, a Hispanic-American. We have Mazie 
Hirono from Hawaii, Japanese-American, and the son of Ireland, 
Dale Kildee. This represents America, the greatness of America, 
and I'm very proud to serve with these people on the education 
and labor subcommittee.
    I'm pleased to welcome the committee here. I could not 
think of a better location for today's hearing. Just like many 
communities throughout the nation, Flint, Michigan is not 
without its challenges. In the face of record unemployment and 
significant economic downturn this community is working hard to 
change its future, a future which rests in the hands of today's 
students.
    Earlier this year, in his address to a joint session of 
Congress, President Obama asked every American to commit to at 
least one year of college and pledge to do more to make college 
accessible and affordable for all Americans. This is an 
important goal for communities like Flint and one we can 
accomplish if we invest in initiatives that give every American 
the opportunity to pursue higher education.
    In Michigan and a growing number of states across the 
country dual enrollment and early college programs have emerged 
as a promising strategy to accomplish this. Dual enrollment and 
early college programs enable students to earn high school and 
college credits simultaneously, fulfilling the requirements for 
a high school diploma by putting them one step closer to a 
college degree.
    Students participating in an early college program, for 
example, typically graduate with between 30 and 60 college 
credits tuition free. This translates to as much as one or two 
years of college education. For nearly half of African-American 
students and 40 percent of Latino students attending high 
schools where the majority of the students do not graduate we 
must change our approach. We owe the same commitment to our 
low-income students who are five times less likely to earn a 
college degree than our middle- and upper-class students. 
Indeed, a significant number of gifted students are high school 
dropouts. Very often they become bored and are not challenged 
and drop out. Dual enrollment and early college programs 
provide these students with challenging opportunities, and they 
see their academic performance blossom and grow.
    To build on this success I've introduced the Fast Track to 
College Act with my Senate colleague, Herb Kohl, from 
Wisconsin. This legislation would invest in the expansion of 
successful dual enrollment and early college programs and 
provide resources for the establishment of new programs 
nationwide. It is my hope that more at-risk students have the 
same opportunity as the students and alumni of Mott Middle 
College and Genesee Early College.
    Today we will hear from one of these students as well as 
administrators and partners in Genesee County's two early 
college programs, Mott Middle College and Genesee Early 
College. I hope today's testimony provides our committee with 
greater understanding of the potential dual enrollment programs 
have for reforming our nation's high schools and increasing 
access to postsecondary education.
    I want to thank all our witnesses for their time this 
morning, and I would like now to yield to the other members of 
the subcommittee and actually go by order of seniority and call 
upon Mr. Payne from New Jersey.
    [The statement of Mr. Kildee follows:]

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    I'm pleased to welcome my fellow Subcommittee members to my 
hometown. It is an honor to have each of you here today. I also want to 
welcome the public, and our witnesses, to today's hearing on high 
school/college dual enrollment programs.
    I cannot think of a better location for today's hearing. Just like 
many communities throughout the nation, Flint, Michigan is not without 
its challenges. In the face of record unemployment and significant 
economic downturn, this community is working hard to change its future. 
A future, which rests in the hands of today's students.
    Earlier this year, in his address to a joint session of congress, 
President Obama asked every american to commit to at least one year of 
college and pledged to do more to make college accessible and 
affordable for all Americans.
    This is an important goal for communities like Flint, and one we 
can accomplish if we invest in initiatives that give every american the 
opportunity to pursue higher education.
    In michigan, and a growing number of states through the country, 
dual enrollment and early college programs have emerged as one 
promising strategy.
    Dual enrollment and early college programs enable students to earn 
high school and college credit simultaneously, fulfilling the 
requirements for a high school diploma while putting them one step 
closer to a college degree. Students participating in an early college 
program, for example, typically graduate with between 30 and 60 college 
credits--tuition free. This translates to as much as 1-2 years of 
college education.
    With nearly half of african-american students and 40 percent of 
latino students attending high schools where the majority of students 
do not graduate, we must change our approach. We owe the same 
commitment to our low-income students who are five times less likely to 
earn a college degree than our Middle-and upper-class students, and 
gifted students who make up 20 percent of high school dropouts. Indeed, 
a high number of gifted children are at risk-of dropping out because 
they lack the academic challenge in their current programs.
    Dual enrollment and Early College programs provide that 
opportunity. Students at these schools have seen their academic 
performance improve, their future opportunities expand, and their 
support system grow.
    To build on this success, I have introduced the Fast Track to 
College Act with my Senate colleague Herb Kohl. This legislation would 
invest in the expansion of successful dual enrollment and early college 
programs and provide resources for the establishment of new programs 
nationwide. It is my hope that more at-risk students have the same 
opportunity as the students and alumni of Mott Middle College and 
Genesee Early College.
    Today, We will hear from one of these students, as well as 
administrators and partners in Genesee County's two early college 
programs--Mott Middle College and Genesee Early College. I hope today's 
testimony provides our committee with greater understanding of the 
potential dual enrollment programs have for reforming our nation's high 
schools and increasing access to postsecondary education.
    I want to thank all of our witnesses for their participation in 
today's hearing and I look forward to your testimony.
                                 ______
                                 
    Mr. Payne. Thank you very much, Mr. Chairman, and let me 
say that it's a real pleasure to be here to participate in the 
hearing of your subcommittee dealing with high school/college 
dual-enrollment programs.
    Let me just say to you in the audience--and I'm sure I'm 
not telling you something that you don't already know, but 
Congressman Kildee is probably the most respected member of the 
United States Congress because of the great ethical and moral 
leadership he has. He is a person that we all admire, and when 
I came to Congress I was very privileged to have a seat close 
to him. I've gotten closer over the years, and I look--at each 
term I look forward to joining his subcommittee because of all 
of the innovation and interest that he has in all of his 
constituents, so it's an honor to be here with him.
    Let me just say that I have a daughter who was educated 
here, actually at Michigan State. I don't know which one of the 
Michigans is less expensive, but I know the one that she went 
to was tough for out-of-state students, you know. But let me 
say it's always great to be here.
    I've been to Flint before and it's really great to see your 
town just fighting back. We all have been hit with the economic 
downturn, but it tells the character of people when things get 
tough, you know, the tough get going. They won't accept no, and 
I think that the character of this region and of this 
particular district that Mr. Kildee leads I think is certainly 
exemplified as we came through the town and saw various 
projects beginning and people highlighting parks and talking 
about art.
    And I think that perhaps the downturn will give us an 
opportunity to once again appreciate things around us, you 
know, our backyards and the color of the leaves and the things 
that perhaps we got away from in the great economy. I'm not 
saying therefore we should always have a bad economy; however, 
I'm simply saying that we are turning to things that we--we're 
realizing and opening new doors. I know we'll all come back, we 
will certainly deal with the issue, but I just wanted to say 
it's a pleasure to be here. Thank you.
    Chairman Kildee. Thank you, Mr. Payne.
    Mr. Hinojosa, from South Texas.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to thank 
Chairman Dale Kildee for holding this field hearing and for 
welcoming me to his congressional district. We have worked 
together on many education issues in Washington, D.C., so I'm 
delighted to be here to listen to the witnesses on the issues 
of early college and the dual credit enrollment programs. But 
before my prepared remarks, I commend you for your selection of 
your new chancellor, Ruth Person, as someone who has roots in 
Texas. The chancellor and I have already met and made friends.
    I am delighted to be here and to share with you that I also 
wanted to briefly share what we've done in my state of Texas on 
these issues that we will hear the panelists tell us about 
their successes.
    In the year 2006 our Texas state legislature enacted 
legislation to increase dual-enrollment-credit programs in all 
of our school districts. The legislation requires each school 
district to implement a program under which students may earn 
at least 12 semester credit hours of college credit in high 
school. I'm pleased however that some of our local school 
districts are offering far more than 12 hours of college 
credit, as I heard Dale say is happening here.
    In the last decade Texas has been--has seen participation 
rates in dual-enrollment-credit programs grow significantly. In 
the year 2000 there were 18,000 students enrolled in dual-
credit programs. Six years forward, the year 2006, that figure 
climbed to 42,000 students. Participation rates for Hispanic 
and African-American students have increased significantly due 
to the expansion of early college high schools and the dual-
enrollment programs in our state. In Texas we have found that 
students that take dual-credit courses are more likely to 
enroll in postsecondary institutions and graduate.
    I am one of the founders of the South Texas Community 
College back 15 years ago. We opened our doors with 800 college 
students and today, 15 years later, we have 23,000 students. We 
changed the name to South Texas College. It's located in 
McAllen, Texas and serves my congressional district and has 
partnerships with 19 school districts and 42 high school sites. 
The difference is that we have cities like McAllen with four 
high schools, and that's where the difference is.
    The number of students served by the dual-enrollment 
program at South Texas College has grown from 425 high school 
students in 1999 to 8,400 this year. Early college high schools 
and dual-enrollment programs have served as a strategy for 
dropout recovery in my district. I'd like to highlight the 
impressive work of Pharr San-Juan Alamo. We call it PSJA for 
short.
    In 2007 the school district established the College Career 
and Technology Academy, which included a partnership with South 
Texas College to offer dual-credit opportunities for young 
people. In the short two-year period they have significantly 
improved the graduation rate for our largely Hispanic and low-
income students through the work at that academy. They cut the 
dropout rate by 70 percent and increased the number of 
graduates from 960 to 1,600 students in only two years.
    I am pleased to inform you that Melinda and Bill Gates 
Foundation have recognized PSJA Superintendent Dr. King with 
many honors and large school grants to promote math and 
science. Thus the PSJA school district just opened a T-STEM 
early college high school. In Texas T-STEM early college high 
school provides advanced educational opportunities for all 
students to exceed graduation requirements by obtaining an 
associate's degree before graduating from high school.
    T-STEM early college school in Texas creates career 
pathways for STEM fields, which is science, technology, 
engineering and math, particularly for Hispanic and low-income 
students, and I'm pleased that we are expanding this successful 
model.
    Finally, as I approach my closing I want to say thank you 
to Congressman Kildee. He does an excellent job. We look up to 
him because of his many experiences, his wisdom, and he has 
been a very strong supporter of the changes and improvements 
that we want to make to No Child Left Behind. So I thank you, 
sir, and I want to say that the formula for success is 
connecting high school students to college early and providing 
them with enriched and rigorous coursework and connecting them 
to our local community colleges and universities before the 
students leave high school.
    I look forward to hearing from today's witnesses about the 
work that is being done here in Michigan and I hope to take 
back your ideas to my own congressional district. Thank you. I 
yield back.
    Chairman Kildee. Thank you very much, Ruben.
    And now a woman who could have chosen to be in Hawaii right 
now but chose Michigan instead, Congresswoman Hirono.
    Ms. Hirono. Thank you, Chairman Kildee, and aloha, 
everybody. Obviously I'm pleased to be here because I serve on 
Mr. Kildee's subcommittee and I also serve on Chairman 
Hinojosa's subcommittee. Education is really foundational. I am 
a first-generation immigrant, and English is not my first 
language. I am the first in my family to go to college, and 
aside from my mother who changed my life by bringing me to this 
country so that her three children--I was brought up by her as 
a single parent so that her three children could have a future 
in a better place than where we were.
    Education has been the great equalizer in my life, and so I 
certainly understand all of our focus on making sure that 
education, which is a continuum--it starts before birth and all 
throughout life--education is a continuum and we need to do 
everything we can at the federal level to make sure that we are 
partnering with the states, with the counties, with other 
jurisdictions, with the philanthropic community to create 
opportunities for our people.
    And especially at a time when our country is losing ground 
in terms of educational attainment vis-a-vis other countries, 
we need to be even more diligent in what we're doing, and I am 
looking forward to your testimony because early college 
programs and dual-enrollment programs are yet other ways that 
we can ensure, especially for our young people who might 
otherwise not be able to go to college, not be enticed to go to 
college, to be able to have that experience.
    We've done a lot in our committee on education and labor in 
the House to promote these kinds of opportunities, and just 
yesterday we in the House passed a very important bill that 
enables more people to be able to go to college through 
expansion of our loan programs, federal loan programs, to 
support our community colleges. And for me particularly as a 
proponent of quality early education there's a huge piece in 
partnering with the states to provide them grants to enable our 
states to create quality early-education opportunities for all 
of our children.
    And then--well, on a personal note, my family has--we've 
covered two of the big universities in this state because my 
husband is a University of Michigan graduate and his sister is 
a Michigan State graduate, so that just about covers, you know, 
a lot of the field. I'm very happy to be here, look forward to 
hearing your views. Aloha.
    Chairman Kildee. Thank you very much, Congresswoman Hirono.
    I will now introduce all the witnesses and then we'll start 
with Tom Svitkovich testifying, but I'll introduce them all.
    Our first witness, Dr. Tom Svitkovich, serves as 
superintendent of the Genesee Intermediate School District. He 
has been an educator for nearly 45 years. He served as a math 
teacher and a building administrator at various levels prior to 
becoming deputy superintendent in the Wayne-Westland Community 
Schools. He served as superintendent of the Carmen-Ainsworth 
Community Schools for five years and joined Genesee 
Intermediate School District as superintendent in 1987. He 
holds two master's degrees and earned his doctorate from Wayne 
State University.
    Dr. Lotfi currently serves as the interim provost and vice 
chancellor for academic affairs at the University of Michigan-
Flint. He is the chief academic officer for the university and 
oversees the Genesee Early College program which convenes on 
the university campus. Dr. Lotfi also holds the rank of 
professor of management science, School of Management at U of M 
Flint. He has a B.S. in electrical engineering and an M.S. and 
Ph.D. in operations research from SUNY in Buffalo.
    Dr. Richard Shaink, who happens to be my neighbor near my 
home here in Flint, has served as president of Mott Community 
College since March of 2000. Prior to that he served in various 
educational and business roles including a former college 
campus president, multicampus vice president, instruction dean, 
college, business industry director, shopping center general 
manager, industrial sales representative, production line 
supervisor, full-time high school teacher and an adjunct 
instructor at Michigan State University and Lansing Community 
College. He received his Ph.D. in educational administration 
from Michigan State University but says that he is most proud 
of the associate of arts degree he earned at Jackson Junior 
College.
    John Otis Brooks, II, is a Flint, Michigan resident. He has 
attended Mott Middle College High School for the last three 
years and will graduate in June 2010 with both a high school 
diploma and associate's degree in business management from Mott 
Community College. He has already earned 32 college credits and 
has been on both the high school honor roll and the college 
dean's list, and he initiated several all-school projects 
including a student mentorship program. He is an award-winning 
bowler and loves basketball and sign language. He plans on 
attending a four-year university to complete a bachelor's 
degree in business management.
    Stephen Skorcz I've met many times here in Flint and in my 
office in Washington, has been president of the Greater Flint 
Health Coalition since mid 1997. He has worked in healthcare 
for 50 years, has spent the last 32 years heading hospital and 
community coalitions committed to voluntary planning and 
coordinating health services in their communities. Mr. Skorcz 
spent ten years working in the Canadian healthcare system on 
health policy and planning, and is president of the Hospital 
Council of Metro Toronto. In addition to the coalition activity 
he has been a hospital administrator in both Chicago and New 
York City. Stephen has undergraduate degrees from DePaul 
University, the University of Illinois in Chicago and a master 
of public health, MPH, in hospital administration from Yale 
University.
    Dr. Michael Webb leads the early college high school 
initiative capacity building work for Jobs for the Future. This 
includes support for the network of 13 early college 
intermediary organizations and management of the early college 
student information systems, a secure system of confidential 
collection of data about students attending early college 
schools throughout the United States. Prior to joining Jobs for 
the Future he served as vice president of New Vision for Public 
Schools where he helped lead the effort to create smaller 
schools in New York City. As director of education at the 
National Urban League he was a voice for community involvement 
in mathematics and science education reform. Dr. Webb received 
a B.A. in engineering, English, ethics studies from St. John 
Fisher College, an M.A. from San Francisco State University and 
a doctorate of education from Teacher's College Columbia 
University.
    Welcome to all our witnesses, and now we'll call upon our 
first witness, Tom Svitkovich. But before we begin let me 
briefly explain our lighting system. The five-minute rule 
exists in Congress and that applies to members of Congress and 
the witnesses. Everyone therefore will be limited to five 
minutes of presentation or questioning. The light is green when 
you begin to speak. When you see the yellow light it means you 
have one minute remaining. When the light turns red your time 
has expired and you need to conclude your testimony. Please be 
certain that you speak into the mic and there is no chair to 
throw you out of there if you do go a little over. We're 
somewhat flexible because we want to hear what you have to say, 
so Tom.

STATEMENT OF THOMAS SVITKOVICH, ED.D., SUPERINTENDENT, GENESEE 
                  INTERMEDIATE SCHOOL DISTRICT

    Mr. Svitkovich. Good afternoon. Thank you, Chairman Kildee 
and members of the community for the opportunity to address the 
Fast Track to College Act. The Genesee Intermediate School 
District is pleased to be the operating agent for the Genesee 
Early College. We were the successful recipient of the state 
grant which enabled us to build this program from the ground 
up. Our first steps included developing a partnership with the 
University of Michigan-Flint, our region's three hospitals, 
Hurley, Genesys and McLaren, the Greater Flint Health Coalition 
and the Charles Stewart Mott Foundation.
    The program is focused on students with a strong interest 
in pursuing a career in the health employment sector. The 
student body includes future doctors, physicians' assistants 
and medical technologists. It is an extremely rigorous program. 
Each student who graduates after five years will earn a high 
school diploma and 60 transferable college credits.
    The power of our program is that it quickens the pace and 
allows students to enter their medical profession of choice a 
year earlier. It also guarantees a higher success rate for 
students after graduation as they pursue their degree. Out 
first steps also included working with our partners, hiring a 
talented staff and solving the ever-present financial 
challenges to ensure that we could operate the program. These 
financial issues will continue to plague us since we were one 
of a handful of the nation's early colleges located on the 
campus of a four-year institution of higher education.
    This program includes first-hand experience with physicians 
and other medical specialists. The power of the place, the 
power of the university, the power of the hospital setting is 
extremely important. We cannot build this kind of learning 
environment in a traditional high school. The program is 
totally different, innovative and extremely effective. Even 
with the initial infusion of capital from both public and 
private partners, the long-term success of this intensive on-
site learning environment requires additional resources.
    We are no strangers to the challenges of operating middle 
colleges and early colleges. We were the first middle college 
in Michigan and one of a few in the nation to open its doors 20 
years ago. Today nearly--well, it's really over--today over 400 
students attend Mott Middle College. These students have all 
dropped out or have experienced limited success in a 
traditional high school. They are now graduating--and you'll 
hear about this soon--with college courses, and some leave with 
an associate's degree. We pattern the Genesee Early College 
after our successful Mott Middle College program. These two 
schools are prime examples of why the Fast Track to College Act 
is essential. Without the help of the federal government we 
will not be able to deliver our promise to the brightest and 
best, nor to those with amazing potential that will go 
unrealized without these types of programs.
    Our support for Fast Track to College Act is based on 
several factors. First, research shows that students who 
complete a minimum of 26 hours of postsecondary credit while 
still in high school have an 85 percent chance of finishing 
their bachelor's degree. Second, we see an important economic 
need to prepare more medical professionals to fill positions 
and maintain service capacity as our baby boomer population 
transitions into retirement. Finally, we believe the Fast Track 
to College Act reflects upon the many years of experience and 
success we've had at our Mott Middle College.
    A federal investment in Fast Track to College Act programs 
can provide schools serving low-income students with resources 
and incentives to establish and support early college high 
schools. Such an investment will help more students obtain a 
postsecondary credential by exposing them to the rigors of 
college-level work, motivating them to continue their 
postsecondary education and saving them money in the process.
    With your support we can begin to break down the walls 
created by poverty. This is an opportunity for students that 
they otherwise will not have without your support. It is about 
giving our young people the opportunity to compete and win in a 
world economy.
    I want to again thank you, Congressman Kildee and the 
members of the committee, for this opportunity, and I will be 
very happy to answer your questions, but before I do so I'd 
like to introduce President Larry Ford. Larry Ford is president 
of the Genesee Intermediate School District and he's been with 
us for several years and he's a strong advocate and supporter 
of both our middle college and the early college. Larry Ford 
was on board when we first set and started Mott Middle College; 
in fact, we're celebrating our 19th birthday this year. So I 
really want to thank Larry for his support and for being here 
this afternoon. Thank you, Mr. Kildee.
    Chairman Kildee. Thank you very much.
    [The statement of Mr. Svitkovich follows:]

Prepared Statement of Thomas Svitkovich, Ed.D., Superintendent, Genesee 
                      Intermediate School District

    Good afternoon. My name is Thomas Svitkovich, and I am the 
Superintendent of Genesee Intermediate School District (GISD), which is 
Genesee County's regional educational service agency.
    Our organization is pleased to be the operating agent for the 
Genesee Early College, a high school on the campus of the University of 
Michigan-Flint. We were the successful recipient of a state grant which 
enabled us to build this program from the ground up. Our first steps 
included developing a partnership with the University of Michigan-
Flint, our region's three hospitals (Hurley Medical Center, Genesys 
Regional Medical Center, and McLaren Regional Medical Center), the 
Greater Flint Health Coalition, and the Charles Stewart Mott 
Foundation. This concept of an early college is also supported by the 
21 constituent K-12 school districts in Genesee County, along with 
districts bordering the county, who send us their students.
    The program is focused on students with a strong interest in 
pursuing a career in the health employment sector. The student body 
includes future doctors, nurses, physician assistants, and medical 
technologists, as well as students pursuing just about every other 
health related career you could think of. It is an extremely rigorous 
program, including a full high school curriculum and two years of 
college work. Each student that graduates from our program will earn a 
high school diploma and 60 transferrable college credits.
    Many of our students will complete their bachelor's degree at 
University of Michigan-Flint, some will transfer to schools in the 
area, and some will leave the state to pursue their baccalaureate 
coursework in the nation's colleges and universities. Middle College 
and early college research has proven that five year programs for high 
school students located on a college campus which includes significant 
college work all but eliminates the dropout possibilities faced by 
today's first and second year college students. The power of our 
program is that it quickens the pace and allows students to enter their 
medical profession of choice a year earlier. It also guarantees a 
higher rate of success for our students after graduation as they pursue 
their degree.
    Our first steps after the collaboration was formed included working 
with our partners, hiring a talented staff, and solving the ever 
present financial challenges to ensure that we could operate the 
program. These financial issues will continue to plague us since we are 
one of a handful of the nation's early colleges located on the campus 
of a four-year institution of higher education. We are pioneers in the 
development of these types of programs that are highly effective and 
have a positive impact on our economy. In the future, the equation for 
this program can be transferred to engineers and other high demand 
professions, quickening the pace for getting the right people into new 
programs to move our economy forward.
    This program, because of our very effective partnerships with the 
health community, includes first hand experience with physicians and 
other medical specialists. The power of the place, the power of the 
university, the power of the hospital setting is extremely important. 
We cannot build this kind of learning laboratory in a traditional high 
school. The program is totally different, innovative and extremely 
effective. It cannot be delivered without leveraging resources from a 
variety of sources. Even with the initial infusion of capital from both 
public and private partners, the long-term success of this intensive, 
on-site learning environment requires additional resources.
    However, we are no stranger to the challenge of operating middle 
colleges and early colleges. We are celebrating the 19th anniversary of 
Mott Middle College on the campus of Mott Community College. We were 
the first middle college in Michigan, and one of a few in the nation to 
open its doors nearly 20 years ago. We have been extremely pleased with 
the growth and evolution of this program, especially the success of our 
graduates. Today, nearly 400 students attend Mott Middle College. These 
students have all dropped out or experienced limited success in a 
traditional high school setting. These students enter our program with 
an average GPA of 1.6. A few years later, they graduate with an average 
GPA of 3.1 and all have completed a minimum of a handful of college 
courses. Some leave with an Associates Degree.
    We patterned Genesee Early College after our successful Mott Middle 
College. These two schools are prime examples of why the Fast Track to 
College Act is essential; especially with regard to the high rigor 
required for success in the health employment sector. Without the help 
of the federal government, we will not be able to deliver our promise 
to the brightest and the best, nor to those with amazing potential that 
will go unrealized without these types of programs. These students have 
made sacrifices and choices for opportunities which surpass those 
available through a traditional high school experience. They are 
capable of succeeding in a very competitive environment with our help, 
and we are doing our best to ensure their success
    Our support for the Fast Track to College Act is based on several 
factors. First, we believe this legislation reflects the research that 
supports the development of early colleges and middle colleges. 
Research shows that students, who complete a minimum of 26 hours of 
post-secondary credit, while still in high school, have an 85% chance 
of finishing their bachelors' degree (Adelman, 1999). Second, we see an 
important economic need to fill vacant medical positions. This is true 
at the national level, but especially on the local level. There is a 
demand to prepare more medical professionals to fill positions and 
maintain service capacity as our baby boomer population transitions 
into retirement. We also see the need because of the rapidly growing 
need for technical knowledge within the field, like the new micro 
surgeries and the pervasive use of technologies. New doctors will have 
this knowledge. Finally, we believe the Fast Track to College Act 
reflects upon the many years of experience and success we've had at our 
Mott Middle College.
    A federal investment in fast-track programs can provide schools 
serving low-income students with resources and incentives to establish 
and support dual enrollment programs and early college high schools. 
Such an investment will help more students obtain a postsecondary 
credential by exposing them to the rigors of college-level work, 
motivating them to continue their postsecondary education, and saving 
them money in the process. With this support, we can begin to break 
down the walls created by poverty. Aside from the economic, health, and 
poverty factors, however, the bottom line is students. This is an 
opportunity for students they otherwise will not have without your 
support. It's all about giving our young people the opportunity to 
compete and win in a world economy.
    I want to again thank Congressman Kildee and members of the 
Committee for this opportunity. I am happy to answer any questions you 
may have.
                                 ______
                                 
    Chairman Kildee. Larry and I date back at least to 1964.
    Mr. Ford. That's right.
    Chairman Kildee. Been friends ever since and I appreciate 
all you've done.
    Our next witness is Dr. Lotfi.

   STATEMENT OF VAHID LOTFI, PH.D., INTERIM PROVOST AND VICE 
    CHANCELLOR FOR ACADEMIC AFFAIRS, UNIVERSITY OF MICHIGAN

    Mr. Lotfi. I welcome this opportunity to present the 
extraordinary partnership between our university and Genesee 
Intermediate School District which has resulted in the creation 
of the Genesee Early College. Today I'll speak to the success 
of this venture from the perspective of the university and how 
well these students have assimilated into our campus culture.
    First, a bit about the university. The University of 
Michigan-Flint is one of three campuses of the world-renowned 
University of Michigan. We offer over 120 degree programs 
including two doctoral degrees. More than 7,700 students are 
enrolled on our campus. The symbiotic relationship between the 
campus and its community is evident in this city. We are the 
area's 11th largest employer, spending millions of dollars 
annually in Genesee County. We are known for our commitment to 
the university both economically and through partnerships such 
as the GEC.
    The GEC is a direct response to the State of Michigan 
Commission on Higher Education and Economic Growth. In a report 
issued by the commission in 2004 there was a specific 
recommendation for expanding the opportunities for early 
college achievement. We joined the GISD responding to the 
charge in 2007 with this unique school which allows us to 
provide an integrated K-16 experience for our students 
preparing them for careers in health professions. GEC is a 
lifeline providing accessibility to college education that is 
not readily available to many deserving students.
    Parents and students have found our campus to be a warm, 
welcoming place conducive to quality education. Last week over 
150 students arrived on our campus. Impressive statistics from 
2008, 2009 academic year clearly delineate the success of these 
students in the university setting. GEC students were enrolled 
in 78 separate UM-Flint courses and collectively earned over 
1,900 college credits. The average 12th grader had 26 college 
credits and 11th graders on average 13 credits. But more 
importantly the overall grade point average of these students 
in their college courses was slightly higher than that of our 
own freshmen students. Their accomplishments are simply 
outstanding. We are extremely pleased with the level of 
aptitude and preparedness these students are showing in their 
studies.
    Now I have an example that goes above and beyond statistics 
and truly illustrates the character and dedication of GEC's 
students. It's a story of two students who sought to join the 
most prestigious program on campus, the honors program. Thaer 
Farhan and Abdul Kazmi are two GEC students who have decided 
they want a challenge. They approached the director of the 
honors program, Dr. Thum, asking if they could enroll. Noting 
their strong academic record Dr. Thum agreed and after a year 
in the program Dr. Thum describes Thaer and Abdul as 
hardworking and goal oriented. This success has resulted in Dr. 
Thum allowing two reserve seats for Genesee Early College 
students every year in the honors program.
    It is an indisputable fact that people with education 
beyond the high school diploma have an economic advantage. 
Further, it's been proven that the key to sustained fiscal 
viability for a state is to have a highly educated work force. 
The GEC is precisely the right place at the right time, 
exposing our children to college environment during high school 
will increase the likelihood they will matriculate through to 
an undergraduate degree and beyond.
    Now a little bit about two more families. The Mateen family 
has always told their children they will go to college. 
Jonathon and Tamra Mateen are Genesee County residents. They 
have two children, Janay and Jonathon, who are with us here, 
both GEC students. Janay is a senior who is actively pursuing 
the field of anesthesia. When she graduates she will have 
earned more than 60 college credits. Jonathon is sophomore.
    Professor Donna Fry is the director of the physical therapy 
program and the mother of 17-year-old twins, Kathryn and 
Kristina, who are with us as well. They are 13th graders who 
have earned 41 UM credits with perfect grade point averages, 
4.0. She is also extremely pleased with this experience.
    The GEC is just one example of why Congressman Kildee's 
H.R. 1578, the Fast Track to College, is so essential to the 
future of our state and the economy. By investing in early 
college education and dual enrollment the Fast Track is the 
right track to providing our children with necessary tools to 
compete in a global state. I strongly encourage the support for 
the Fast Track to College since I witness every day the solid 
results that come from well-executed early college programs.
    It's been an honor to talk before you. Thank you for your 
time. I'd be happy to answer any questions you have.
    Chairman Kildee. Thank you very much, Dr. Lotfi.
    [The statement of Mr. Lotfi follows:]

  Prepared Statement of Vahid Lotfi, Ph.D., Interim Provost and Vice 
     Chancellor for Academic Affairs, University of Michigan-Flint

Partnership and Progress: The Success of the Genesee Early College at 
        the University of Michigan-Flint
    Good afternoon. My name is Vahid Lotfi, and I am the Interim 
Provost and Vice Chancellor for Academic Affairs at the University of 
Michigan-Flint. I welcome this opportunity to describe in some detail 
the extraordinary partnership between this university and the Genesee 
Intermediate School District which has resulted in the Genesee Early 
College. What I will speak to today is the success of this venture from 
the perspective of the university, and how well these students have 
assimilated into our campus culture as they pursue their career 
interests in the varied areas of the health professions.
    But first, a bit about our campus.
    The University of Michigan-Flint is one of three campuses of the 
world-renowned University of Michigan. We offer more than 120 degree 
programs, including undergraduate, graduate and two doctoral degrees. 
More than 7,700 students are enrolled on our campus. The symbiotic 
relationship between a campus and its community is evident in this 
city. The University of Michigan-Flint is the area's 11th largest 
employer, spending millions of dollars annually within Genesee County. 
The University of Michigan-Flint is known for its commitment to the 
community both economically and through partnerships such as the 
Genesee Early College.
    The Genesee Early College is a direct response to the State of 
Michigan's Commission on Higher Education and Economic Growth which had 
the charge of developing a plan to double the number of college 
graduates in the state. In a report issued by the Commission in 2004, 
there was a specific recommendation for expanding the opportunities for 
Early College achievement. The report states, quote, ``* * * Rather 
than hold its students back, Michigan must be willing to accelerate the 
pace of learning to realize education gains that will translate into a 
stronger economy and better jobs.'' We joined the Genesee Intermediate 
School District in responding to the charge in 2007 with this unique 
school, which allows us to continue our commitment to providing an 
integrated K-16 experience for students, preparing them for careers in 
high-need, understaffed health professions pathways. The Genesee Early 
College is a lifeline, providing accessibility to education that is not 
readily available to all deserving students. The combination of high 
school and university classes gives bright young minds the chance to 
achieve at a high level, and gain access to one of the University of 
Michigan campuses.
    Parents and students have found the University of Michigan-Flint to 
be a warm, welcoming place that provides an atmosphere, conducive to 
quality learning. Last week, over 100 Genesee Early College students 
arrived on our campus. They join what will be the largest student body 
in the history of our university when our official enrollment numbers 
are released next week. Impressive statistics from the 2008/2009 
academic year clearly delineate the success of these students in a 
university setting.
    During the last academic year, Genesee Early College students were 
enrolled in 78 separate UM-Flint courses and collectively earned over 
1,900 UM-Flint (college) credits. The average 12th grader last year 
earned 26 UM-Flint credits and 11th graders have completed on average 
13 credits. The overall grade point average of these students in their 
UM-Flint courses rose last year to an average of 2.87 compared to 2.62 
for students who fall under the First Time In Any College (FTIAC) 
category.
    These accomplishments are simply outstanding, and we are extremely 
pleased with the level of aptitude, preparedness and dedication these 
students are showing in their studies. University of Michigan-Flint 
faculty report that students from the Genesee Early College not only 
keep up with their fellow students, but in some cases excel beyond 
those who have graduated from high school. Now, an example that goes 
beyond the statistics and truly illustrates the character and 
dedication of Genesee Early College students to their education. It is 
a story of two students who sought out the opportunity to become part 
of the most prestigious program we offer at the University of Michigan-
Flint: The Honors Program.
    The University of Michigan-Flint Honors Program consists of the 
best and brightest students. With an emphasis on research at the 
undergraduate level, the Honors Program offers students the chance to 
work one-on-one with professors to develop special projects. This 
method has led to a remarkable record of success. Graduates from the 
Honors program have been accepted in the most distinguished graduate 
and professional schools in the country including Harvard University 
and the Mayo Clinic, and 100% of honors program students applying to 
medical schools, graduate schools, and professional schools have been 
accepted.
    Thaer Farhan and Abdul Kazmi are two Genesee Early College students 
who decided they wanted a challenge. They approached the director of 
the Honors Program, Dr. Maureen Thum, asking if they could enroll. 
Noting their strong academic records, Dr. Thum agreed. After a year in 
the Honors Program, Dr. Thum describes Thaer and Abdul as hard-working 
and goal oriented. She reports they have not only kept up with the 
college students in the Honors Program, they have higher achievements 
than some of their peers. In fact, Dr. Thum, who is also one of our 
English professors, states that Thaer and Abdul both write at a level, 
even higher than that of some high school graduates. As a result of the 
positive experiences of Thaer and Abdul, Dr. Thum has reached an 
agreement with the Genesee Early College to admit two new students each 
year to the UM-Flint Honors Program. As Dr. Thum recently said, 
``Genesee Early College students deserve the opportunity to be at the 
university level to discover what it is like to have a completely 
different level of competition.''
    It is an indisputable fact that people with education beyond a high 
school diploma have an economic advantage. Furthermore, it has been 
proven that the key to sustained fiscal viability for a state and 
region is to have a highly educated workforce that can utilize 
creativity and innovation to provide solutions to today's problems and 
invent tomorrow's industries. The Genesee Early College is precisely in 
the right place at the right time. With approximately 80% of our alumni 
living and working in the state of Michigan, the University of 
Michigan-Flint can help to increase the number of people who have 
postsecondary education in the state because of its affiliation with 
the Genesee Early College. Exposing our children to a college 
environment during high school will increase the likelihood they will 
matriculate through to an undergraduate degree and beyond. I will now 
share with you the stories of two families, the Mateens and the Frys 
who are advocates for ensuring positive university experiences for 
their children.
    The Mateen family has always told their children they will go to 
college. Jonathon and Tamra Mateen are two lifelong Genesee County 
residents. Both are employed in the health professions at Hurley 
Medical Center here in Flint. They have two children, Janay, who is a 
senior, and Jonathon--a sophomore--who are enrolled at the Genesee 
Early College. As parents, Mr. and Mrs. Mateen are extremely pleased 
with the experience their children have had at the Genesee Early 
College. Janay is a senior who is actively pursuing a career in the 
field of Anesthesia. When she graduates, she will have earned her 60 
college credits. The Mateens say they feel the Genesee Early College 
has given their children a distinct advantage, helping Janay and 
Jonathon focus on their studies while keeping an eye to the future.
    Professor Donna Fry is the Director of the Physical Therapy 
Department at UM-Flint and the mother to 17-year-old twins, Kathryn and 
Kristina. They are 13th graders who have already earned 41 UM-Flint 
credits and perfect grade point averages. They did all of this while 
being incredibly involved, participating in everything from the UM-
Flint Wind Symphony to volunteering for the Obama campaign to playing 
on the UM-Flint Ultimate Frisbee team. As a parent and education 
professional, Professor Fry is pleased with the outstanding experience 
her daughters have had at the Genesee Early College. Professor Fry 
states, ``Medical clinical rotations through the Genesee Early College 
helped them to understand more about patient care and firmed up their 
interest in doing research in medical fields of study. Both girls are 
very mature for their age and the university environment allowed them 
to grow socially and to develop their self-identity as individuals much 
more than I think a typical high school environment would have 
allowed.'' The Mateens and Professor Fry firmly believe that being part 
of a university community so early in their lives, their children will 
be prepared to face the job market of tomorrow and excel.
    The Genesee Early College is just one example of why Congressman 
Kildee's bill, H.R. 1578, the Fast Track to College Act, is so 
essential to the future of our state and country. By investing in early 
college and dual enrollment programs, the Fast Track is the right track 
to providing our children with the means necessary to compete on a 
global stage. Through the example of the Early College, you see how a 
university and its community partners can work together to provide an 
extraordinary educational experience for students who are willing to 
eschew a traditional high school setting for a learning environment 
that is both accelerated and accommodating. I strongly urge support for 
the Fast Track to College Act, since I witness every day the solid 
results that come from well-executed early college programs. It is 
precisely the type of partnership that must occur on a broader level, 
bringing together government, the educational system, and the people in 
the best interest of our children.
    As you have heard, the Genesee Early College is a key component in 
providing accessibility to education in this community. A 
recommendation worth considering is to continue to invest significantly 
in Pell Grants and other federal programs so that successful graduates 
of the early college can complete their degrees with the comfort of 
knowing their education will continue to be funded. This financial vote 
of confidence would be particularly meaningful to these students and 
their families.
    The campus community of the University of Michigan-Flint is united 
in the belief that this type of community partnership is essential to 
the advancement of our state. It is part of our mission to be civically 
engaged, working with other leading institutions to find solutions to 
critical issues that impact us all. During these difficult economic 
times for our state and our country, it is heartening to see the 
substantial support we have received from the Governor, Lieutenant 
Governor and legislators who approved the funding for this initiative. 
It is exactly this type of investment that will help Michigan to 
building a promising future for students such as Thaer, Abdul, Janay, 
Jonathon, Kathryn and Kristina. Let the Genesee Early College and 
others like it serve as a bold statement about the priorities that we 
are setting for the state of Michigan in the years to come.
    Thank you for your time today, and I welcome your questions.
                                 ______
                                 
    Chairman Kildee. Dr. Richard Shaink, my neighbor.

    STATEMENT OF M. RICHARD SHAINK, PH.D., PRESIDENT, MOTT 
                       COMMUNITY COLLEGE

    Mr. Shaink. Thank you very much, Chairman Kildee and 
members of the subcommittee, for the invitation to speak at 
today's hearing. As president of Mott Community College I 
welcome this opportunity to tell you about the success of Mott 
Middle College High School and the impact it is having on the 
lives of students it serves. Mott Middle College High School is 
located on our campus and is a partnership between Mott 
Community College and the Genesee Intermediate School District. 
The students are earning college credit at MCC while attending 
9th through 13th-grade school. Its sole purpose is to serve 400 
at-risk youth who have become disengaged from education. 
Established in 1991, it is the longest-standing middle or early 
college in Michigan and possibly in the country.
    Due to the demonstrated success of Mott Middle College High 
School we are in our 16th year of the National Replication 
Project funded by the Charles Stewart Mott Foundation. This 
effort is providing technical assistance to community colleges, 
school districts and other organizations in over two dozen 
communities each year who are establishing their own middle or 
early college. As an outgrowth of this replication work the 
Center for Early and Middle Colleges in Michigan was 
established by the Michigan Department of Education with 
support from Mott Foundation to ensure that middle and early 
colleges in Michigan that have started are being planned and 
have the capacity to become viable and remain sustainable.
    The center's located at Mott Middle College High School and 
is directed by Dr. Chery Wagonlander, principal. The high 
school was one of the first middle colleges to participate in 
the Gates Early College Initiative through the Middle College 
National Consortium. Additionally, Mott Community College was 
funded through the U.S. Department of Education to operate a 
tech prep demonstration project, a program that supports the 
efforts of successful middle and early colleges.
    The practice at the high school and its replication efforts 
are based on design principles that began in New York in the 
1980s through the Middle College National Consortium. They 
continue to incorporate current research on engaging at-risk 
youth and are seen in the most successful middle and early 
colleges across the country. The design principles together 
create an environment for the success of students who have 
traditionally been under served in our public schools, 
particularly the students who are unmotivated, under prepared 
for high school work, disengaged from their education and/or 
first-generation college bound.
    You have received detailed information regarding the impact 
of middle college high school. I would like to highlight 
several of those successful benchmarks. Data for the past 16 
years indicates students enter with a grade point average of 
1.6 and exit with a high school grade point average of 3.1. 
Over the 17 years of dual enrollment Mott Middle College High 
School students have successfully earned a total of 5,455 
college credits with an average GPA of 2.92. Last year's 
graduation class--graduating class averaged 19.2 college 
credits per student. 13 of those students earned 24 or more 
college credits and two graduated with double associate degrees 
from Mott Community College.
    The high school serves as a national lab setting for middle 
and early college replication research and outreach. It has 
hosted visitors from all over Michigan, the United States and 
several other countries. Its curricula, affective skills 
initiative and small schools design have been replicated at 
multiple sites. Mott Middle College High School in 
collaboration with the New York Center for Media and Learning 
has been a national site for the American Social History 
Project since 1993. And since the Center for Early and Middle 
Colleges in Michigan was launched, six technical assistance 
conferences have taken place on our campus hosting 12 Michigan 
programs.
    In conclusion I think it's important to note that this is a 
time when community colleges are being considered major players 
in helping the individuals from all walks of life to access 
higher education. In the area of high school college dual 
enrollment community colleges, including Mott Community 
College, have been in the forefront of successfully addressing 
the needs of at-risk youth. An expansion of these efforts can 
help to meet the critical need of leaving no one behind and we 
support a Fast Track legislation. Thank you for your time.
    Chairman Kildee. Thank you very much, Dr. Shaink.
    [The statement of Mr. Shaink follows:]

    Prepared Statement of M. Richard Shaink, Ph.D., President, Mott 
                           Community College

    I would like to thank Chairman Kildee of the Subcommittee on Early 
Childhood, Elementary and Secondary Education for the invitation to 
speak at today's hearing. As President of Mott Community College, I 
welcome this opportunity to tell you about the success of Mott Middle 
College High School and the impact that it is having on the lives of 
the students it serves. Mott Middle College High School is located on 
our campus and is a partnership between Mott Community College and the 
Genesee Intermediate School District. Students earn college credit at 
Mott Community College, while attending this 9th through 13th grade 
high school. Its sole purpose is to serve at-risk youth who have become 
disengaged from education. Established in 1991, it is the longest 
standing middle or early college in Michigan; and, one of the longest 
standing in the country.
    Due to the demonstrated success of Mott Middle College High School, 
we are in our sixteenth year of a National Replication Project funded 
by the Charles Stewart Mott Foundation. This effort is providing 
technical assistance to community colleges, school districts and other 
organizations in over two dozen communities each year, who are 
establishing their own middle or early college. As an outgrowth of this 
replication work, the Center for Early and Middle Colleges in Michigan 
was launched last year. The Center is located at Mott Middle College 
High School and is directed by Dr. Chery Wagonlander, Principal. It was 
established by the Michigan Department of Education, with support from 
the Mott Foundation, to ensure that middle and early colleges in 
Michigan that have started and are being planned have the capacity to 
become viable and remain sustainable.
    Mott Middle College High School was one of the first middle 
colleges to participate in the Gates Early College initiative through 
the Middle College National Consortium. Additionally, Mott Community 
College was funded through the U.S. Department of Education to operate 
a Tech Prep Demonstration Project, a program that supports the efforts 
of successful middle and early colleges.
    The practices at Mott Middle College High School and the 
replication efforts are based on Design Principles (see Appendix 1 for 
more details) that began in New York in the 1980's through the Middle 
College National Consortium. They continue to incorporate current 
research on engaging at-risk youth and are seen in the most successful 
middle and early colleges across the country. The Design Principles 
together create an environment for the success of students who have 
traditionally been underserved in our public schools; particularly 
students who are unmotivated, under prepared for high school work, 
disengaged from their education, and/or first generation college bound.
    You have received detailed information (see Attachment 1--Mott 
Middle College Student Data--September 2009) regarding the impact of 
the Middle College High School. I would like to highlight several of 
those successful benchmarks. Data from sixteen Mott Middle College High 
School cohorts indicates an average entering GPA of 1.6 and exiting 
high school GPA of 3.1. Over the seventeen years of dual enrollment, 
Mott Middle College High School students have successfully earned a 
total of 5,455 in Mott Community College credits with an average GPA of 
2.92. Last year's graduation class averaged 19.2 of Mott Community 
College credits per student. Thirteen of these students earned twenty-
four or more college credits and two graduated with double Associate 
Degrees.
    Mott Middle College High School serves as a national lab setting 
for middle and early college replication, research and outreach. It has 
hosted visitors from all over Michigan, the United States and several 
other countries. Its curricula, affective skills initiative and small 
schools design have been replicated at multiple sites. Mott Middle 
College High School, in collaboration with New York Center for Media 
and Learning, has been a national site for the American Social History 
Project since 1993. And, since the Center for Early and Middle Colleges 
in Michigan was launched, six technical assistance conferences have 
taken place, hosting up to twelve Michigan programs.
    I think it is important to note that this is a time when community 
colleges are being considered major players in helping individuals from 
all walks of life to access higher education. In the area of High 
School/College Dual Enrollment, community colleges, including Mott 
Community College, have been in the forefront of successfully 
addressing the needs of at-risk youth. An expansion of these efforts 
can help to meet the critical need of leaving no one behind. Thank you 
for your time.

                               APPENDIX 1

Middle College National Consortium Design Principles
    These Six Design Principles are based on work that began in New 
York in the 1980's and continue at Middle Colleges across the country. 
The Design Principles are also based on current research on engaging 
at-risk youth. Each one of the Six Design Principles is important to 
the success of students who have traditionally been underserved in our 
public schools; particularly students who are unmotivated, under 
prepared for high school work and disengaged from their education. 
These Six Design Principles are:
    <bullet> Power of the Site--Locating schools on a college campus is 
integral to student motivation and success and to an enduring 
collaborative partnership. It is a visible symbol to the community of a 
dual accountability for student outcomes and academic success. Students 
are treated as college students and see themselves as college 
completers.
    <bullet> Teaching and Learning--Developing students' literacy 
skills is critical to academic success. Schools regularly engage 
students in rigorous, in-depth academic work, use active intellectual 
inquiry and sustained writing and revision in all classes.
    <bullet> Student Assessment--Schools design a system of assessment 
that provides multiple opportunities for students to publicly exhibit 
what they know and can do. Assessments grow out of classroom work and 
provide on-going feedback to the school community, the teacher, the 
student and the parent on a students' progress toward achieving 
academic proficiency.
    <bullet> Student Support--`Smallness', less than 100 students per 
grade level, helps to create a learning community for students and 
teachers and provides opportunities for flexible and innovative 
structures to support students academically and emotionally.
    <bullet> Democratic School Governance--Purposefully designed 
structures provide for everyone's voice to be heard and respected in 
the decision-making process with regard to hiring personnel, managing 
budget, determining curriculum and pedagogy, developing students' 
activities and any other policies that affect the daily life of 
students and faculty.
    <bullet> Professional Development--Staff participates in on-going 
professional development that focuses on student success. Time during 
the school day is provided for staff development and the creation of 
professional learning communities. New teachers are mentored in order 
to help them to understand and to implement the goals of the community.
                                 ______
                                 
    Chairman Kildee. Mr. John Brooks.

   STATEMENT OF JOHN BROOKS, STUDENT, MOTT COMMUNITY COLLEGE

    Mr. Brooks. First, let me thank Chairman Kildee and the 
subcommittee for giving me the opportunity to testify at this 
hearing to support early college programs. My name is John 
Brooks. I attend Mott Middle College High School in Flint, 
Michigan and will graduate in 2010 with a high school diploma 
and an associate degree. I feel fortunate that my mom came to 
me and told me about this program. Now I will be the first male 
and sibling in my family to earn a college degree.
    While at Mott Middle College I have maintained a 3.35 high 
school GPA and I will complete my associate's degree in 
business management. After I graduate I plan on going to a big 
university and becoming a great business manager.
    Mott Middle College has helped me and my family in so many 
ways. My peers and I think one of the program's greatest 
strengths is it provides free college tuition. If I did not 
attend Mott Middle College I probably would not have gone to 
college due to my family's financial situation and the lack of 
mental and academic support in the traditional high school 
setting.
    In fact, I have friends who without MMC would not have 
started college or maybe even graduated from high school 
because of poverty, having children or not seeing a future for 
themselves past high school. At our school all students are 
looked at as college bound and can become college successful.
    At Mott Middle College we are like a family. Everyone 
supports everyone. Our teachers are here for us during school 
and outside of school. During my time at Mott Middle College I 
was able to start a mentor program to help some of the students 
who do not have the support at home and outside of school. We 
also started a Peace Maker and Peace Jam program for our zero-
tolerance rule for fighting.
    Mott Middle College doesn't just enroll us into classes and 
pay for them, our teachers give us more one-on-one attention 
than regular high schools. The teachers help us when we need 
it, whether it's schoolwork, helping us figure out which 
college classes to take or helping us look for scholarships to 
pay for additional college when we leave. They also send us on 
leadership trips like the one I attended in Canada in 2008. It 
was a Rotarian leadership conference in Ontario.
    We also have a more diverse student population, so there 
are really no cliques or groups. Students set examples for each 
other. Everyone is expected to be a role model. Because our 
school is small, everyone is acquainted with each other.
    MMC creates more opportunities for students because they 
get a head start on college credits and get a good introduction 
on a college atmosphere. Our college requires students to take 
at least three early college seminars to prepare us to earn 
good grades in our college classes and mature as responsible 
adults. We also have FOCUS groups where the teachers and the 
students get to know each other like a family. During this 
class time you can get help on homework or have fun with others 
and communicate. We also have college public safety on our 
campus, so it makes it a safe environment.
    So some may ask what's different about going to high school 
on a college campus. Being on a college campus forces us to act 
mature like adults because we are in class with adults, we have 
lunch with adults, we ride the bus with adults, so we become 
adults. I asked some of my fellow classmates how is MMC 
different from a traditional high school and they told me, 
quote, it's like we're at home, everyone is friendly. The 
teachers interact with us more and we get more one-on-one 
attention. When we come here we want to do better. It's a more 
diverse student population. It gives us a different look on 
life. We have more responsibilities as students.
    I would like to end my testimony by saying we come in as 
students, we leave as scholars. Thank you.
    Chairman Kildee. Thank you very much, Mr. Brooks.
    [The statement of Mr. Brooks follows:]

   Prepared Statement of John Otis Brooks, II, 5th Year Mott Middle 
                      College High School Student

    First, let me thank Chairman Kildee for giving me the opportunity 
to testify at this hearing to support early college programs.
    My name is John Brooks. I attend Mott Middle College High School in 
Flint, Michigan and will graduate in 2010 with a high school diploma 
and an Associate's Degree. I feel fortunate that my Mom came to me and 
told me about this program. Now, I will be the first male and sibling 
in my family to earn a college degree.
    While at Mott Middle College, I have maintained a 3.35 high school 
GPA and I will complete my Associate's Degree in Business Management. 
After I graduate, I plan on going to a big university and becoming a 
great business manager.
    Mott Middle College has helped me and my family in so many ways. My 
peers and I think one of the program's greatest strengths is that it 
provides free college tuition. If I did not attend Mott Middle College, 
I probably would not have gone to college due to my family's financial 
situation and the lack of mental and academic support in the 
traditional high school setting.
    In fact, I have friends, who without MMC, would not have started 
college or maybe even graduated from high school either because of 
poverty, having children, or not seeing a future for themselves past 
high school. At our school, all students are looked at as college bound 
and can become college successful.
    At Mott Middle College we are like a family; everyone supports 
everyone. Our teachers are here for us during school and outside of 
school. During my time at the Mott Middle College, I was able to start 
a Mentor Program to help some of the students who do not have the 
support at home and outside of school. We also started a Peace Maker 
and Peace Jam Program for our ``zero tolerance'' rule for fighting.
    Mott Middle College doesn't just enroll us in the classes and pay 
for them. Our teachers give us more one on one attention than regular 
high schools. The teachers help us when we need it, whether its school 
work, helping us figure out what college classes to take, or helping us 
look for scholarships to help pay for additional college when we leave. 
They also send us on leadership trips like the one I attended in Canada 
in 2008. It was the Rotarian Leadership Conference in Ontario.
    We also have a more diverse student population, so there really are 
no ``cliques'' or groups. Students set examples for each other and 
everyone is expected to be a role model. Because our school is small, 
everyone is acquainted with each other.
    MMC creates more opportunities for students because they get a head 
start on college credits and a good introduction to a college 
atmosphere. Our school requires students to take at least 3 early 
college seminars to prepare us to earn good grades in our college 
classes and mature as responsible students. We also have FOCUS groups 
where the teachers and students get to know each other like a family. 
During this class time you can get help with homework or have fun with 
others and communicate.
    We also have college public safety on our campus, so it makes it a 
safe environment.
    So, some may ask ``What's different about going to high school on a 
college campus?'' Being on a college campus forces us to mature and act 
like adults because we are in class with adults, we have lunch with 
adults, we ride the bus with adults; so we become adults.
    I asked some of my fellow classmates ``How is MMC different from a 
traditional high school?'' They told me:
    ``It's like we're at home; everyone is friendly''
    ``The teachers interact with us more and we get more one on one 
attention''
    ``When we come here, we want to do better''
    ``It's a more diverse student population. It gives us a different 
look on life''
    ``We have more responsibilities as students''
    I would like to end my testimony by saying, we come in students, we 
leave as scholars.
                                 ______
                                 
    Chairman Kildee. Mr. Stephen Skorcz.

 STATEMENT OF STEPHEN SKORCZ, MPH, PRESIDENT AND CEO, GREATER 
                     FLINT HEALTH COALITION

    Mr. Skorcz. Thank you, Congressman Kildee and distinguished 
committee members and panelists. I am Stephen Skorcz, the 
president and CEO of the Greater Flint Health Coalition. And 
today on this panel I represent an industry that employs 
people. And while all of the educational institutions in our 
community are important for the future employees, they all 
train for our organizations in healthcare. We have a special 
affiliation with Genesee Early College because of its 
commitment in the healthcare arena.
    I just want to highlight--and my testimony has been 
distributed, but I will only highlight a couple of points, one, 
of the Greater Flint Health Coalition itself and its 
uniqueness, especially in this day and age of healthcare 
reform; and the other is Flint's unique role in something 
called Sector Workforce Development, especially in healthcare.
    The healthcare industry in Genesee County supports 
Congressman Kildee's Fast Track to College Act. About the 
coalition itself, it is probably one of the most unique 
collaborative exercises in healthcare in the nation, and indeed 
in Genesee County healthcare leaders, business, labor, 
education do cooperate. In fact, this is an organization that's 
submitted to President Obama three months ago a position on 
healthcare reform that all the diverse participants can agree 
to. So we were hoping to be invited to Washington, D.C. To 
teach Congress how to do it, but we'll see.
    The other thing that I would like to mention is that the 
healthcare providers in Genesee County are critical important 
players to the educational programs and especially to Genesee 
Early College. The hospitals, healthcare providers and myself 
served on the advisory committee for the Genesee Early College. 
We practice, as I stated, in Flint, Michigan. This aspect of 
Sector Workforce Development, and what I mean by that is we 
have in this community taken traditional workforce development 
and turned it on its head. While traditional training and 
workforce development has done the training and education part, 
they generally--individuals by and large have been on their own 
to find those careers that will give them and make them 
gainfully employed.
    We do hope in Flint we do this in a different way, and that 
different way is to make the employers in the driver's seat 
where the healthcare sector employers actually define the jobs 
that they need for the future and impact workforce development 
so the individuals who then go through those programs can be 
gainfully employed.
    We are delighted to be here today and supportive of the 
work this committee is doing. Thank you very much.
    Chairman Kildee. Thank you very much.
    [The statement of Mr. Skorcz follows:]

 Prepared Statement of Stephen Skorcz, MPH, FACHE, President and CEO, 
                     Greater Flint Health Coalition

    Congressman Kildee, and distinguished panelists, it is my pleasure 
to speak to you today.
    I am Stephen Skorcz, the President & CEO of the Greater Flint 
Health Coalition here in Flint, Michigan. I am happy to be here today 
to provide you with comments on the healthcare industry's perspective 
on the efforts that have been highlighted by the other panelists today. 
More specifically, I will tell you about the Greater Flint Health 
Coalition's efforts related to the Genesee Early College and also some 
about our work to further develop a concept known as Sector Workforce 
Development (which puts healthcare employers in the driver's seat for 
developing their future workforce). What you will learn today is that 
your support to reauthorize the Elementary and Secondary Education Act 
and advance
    Congressman Kildee's Fast Track to College Act can help communities 
like Genesee County continue activities like the Genesee Early College 
and achieve even greater success with our Sector Workforce Development 
efforts. The success of these Sector Workforce Development efforts will 
satisfy the growing demand for skilled healthcare workers.
    To start, please allow me to provide you with some general 
background on the Greater Flint Health Coalition. The Greater Flint 
Health Coalition is a 501(c) 3 organization. It is a highly successful 
regional collaborative that serves as a successful community and 
institutional partnership. Our Board of Directors broadly reflects the 
community of Genesee County and we have had significant success in 
pursuit of our mission (which is twofold): to improve the health status 
of the citizens of Genesee County and to improve the quality and cost 
effectiveness of the health care system in our community. We became 
involved with the Genesee Early College during the proposal development 
process because it aligned with the work being done in our Flint 
Healthcare Employment Opportunities Program (or F-H-E-O as we call it) 
which provides training and educational opportunities for individuals 
who are seeking a career in the healthcare field. The FHEO Program 
serves low-income individuals, the unemployed, dislocated workers, 
incumbent workers and youth. We've worked hard to make the FHEO Program 
a success and believe that it has set the stage for programs like the 
Genesee Early College to be a success. For more background on the FHEO 
Program and the Greater Flint Health Coalition, please see attachments 
to this testimony.
    Looking more closely at where we stand today with the Genesee Early 
College, I serve on the Genesee Early College Advisory Committee which 
advises the Early College staff on various issues. There are other FHEO 
Program partners who are also involved in this Advisory Group including 
representatives from Genesys Health System, Hurley Medical Center, and 
McLaren Regional Medical Center. Having these employers at the table is 
very important.
    When I describe the FHEO Program or Genesee Early College as a 
sector workforce development program this means that we are turning 
traditional workforce development on its head. What once was a system 
that trained people first and then sent them out to find jobs is now 
(under Sector Workforce Development) one which targets employers in a 
specific industry first to define their employment needs and then train 
people to meet those needs. The industry we target is health care and 
its employers fill leadership roles and set the agenda to help us 
develop the healthcare labor force. This is more than just simple 
consultation. Employers provide direct leadership and drive how we 
serve participants.
    A specific example of this necessary type of employer leadership is 
seen in the group of employers who were convened by the Coalition to 
serve as a Genesee Early College Subcommittee. When the staff needed 
advice on student internships, an employer Subcommittee came together 
to better frame the student internships and provided information on 
which clinical experiences would be most beneficial for up-and-coming 
students seeking healthcare careers.
    More recently, the Coalition has been working to bring interested 
Genesee Early College Students in to observe the activities of one of 
our 20+ Committees and Task Forces. As students do research on the 
field, our committee activities can expose them to real world 
practitioners dealing with specific and pressing issues all in a 
consensus-based environment. What an opportunity for young people to 
learn! To get involved, students must do a write-up on why they want to 
observe a Committee, interview with staff, debrief with staff after all 
meetings, and do a write-up on the experience.
    The concept of Sector Workforce Development is taking hold around 
the nation because it works. Recently proposed legislation called The 
Strengthening Employment Clusters to Organize Regional Success (or 
SECTORS) Act has given the concept further credibility as a national 
model. Whether the work is done through an activity like the FHEO 
Program or the Genesee Early College, there is a high level of employer 
commitment for Sector Workforce Development in Genesee County and we 
want to see continued growth. I urge you to reauthorize the Elementary 
and Secondary Education Act and support Congressman Kildee's Fast Track 
to College Act. These will help the residents of Genesee County by 
building the skills of young people to meet employer needs over all 
industries but, most importantly, the skills needed to address the 
shortages of healthcare workers throughout Michigan and the U.S.
    Thank you for your time.
                                 ______
                                 
    Chairman Kildee. Dr. Michael Webb.

  STATEMENT OF MICHAEL WEBB, PH.D., ASSOCIATE VICE PRESIDENT, 
         EARLY COLLEGE INITIATIVE, JOBS FOR THE FUTURE

    Mr. Webb. Chairman Kildee and the State members of the 
subcommittee, I am very pleased and honored to be here to 
present testimony before you today. My testimony will build on 
the experience of the early college high school initiative, a 
national effort to significantly increase the number of 
unrepresented students who attain a college degree.
    I am associate vice president for Jobs for the Future. 
Through research, action, advocacy JFF develops promising 
education and labor market models that enable American families 
and companies to compete in a global economy.
    As education secretary Arne Duncan noted recently, only 38 
percent of young workers have a college degree. This is a lower 
percentage than nine other countries and no higher than a 
generation ago. It's a sad reality today that one-third of high 
school students don't graduate and more than half leave high 
school unprepared for college-level academics. Yet, as the 
United States pulls itself out of the most severe financial 
crisis since the Great Depression, it is the level of 
preparation of our work force that will ultimately determine 
our economic strength and our ability to compete in a global 
economy.
    Gaps in educational attainment are caused by failure at 
critical points. For every ten students who start high school 
approximately two-thirds of them will get a high school diploma 
and five will enroll in a postsecondary institution. Fewer than 
three of these will complete a bachelor's degree within ten 
years. The statistics for students of color are far worse with 
just over half of African-Americans and Latinos completing a 
high school credential.
    However, completing high school is not enough to compete in 
today's economy. A high school diploma will no longer enable a 
young person to gain a decent-paying career. A four-year 
college graduate earns two-thirds more than a high school 
graduate does. An associate's degree translates into earning 
significantly higher than those earned by an individual with a 
high school diploma.
    Early colleges are small schools designed so that students 
can earn both a high school diploma and up to two years of 
college credit or an associate's degree. The early college high 
school initiative began with a captivating, though radical, 
concept: Challenge, not remediation, will make a difference for 
those young people who are least likely to attend college and 
for whom society often has low aspirations for academic 
achievement.
    The philosophy behind this approach is grounded in the 
expectation that most students have the intellectual ability to 
succeed in college. What many students do not have, 
particularly students whose parents did not go to college, are 
college expectations, meaningful college exposure, sufficient 
academic rigor in their K-12 classes and the habits of mind 
required for college success.
    The first year of college is a critical time. For many 
students the lack of adequate preparation in high school means 
the need for remedial non-credit courses. Ultimately this means 
wasted money and time and results in low college completion 
rates. Early college schools help to compress the time to a 
college degree and provides support to help students transition 
to and through the first year or two of colleges without the 
need for remediation.
    Today the number of early college schools has grown from 
three during the 2002-3 school year--and Mott Middle College is 
one of them--to more than 200 early colleges across 24 states. 
The schools enroll 42,000 students. Half the students are the 
first in their family to attend college. Nearly 60 percent 
qualify for free or reduced lunch. Three-fourths are students 
of color.
    Though the initiative is young, we are seeing significant 
successes. In 2008 early college schools open four or more 
years graduated nearly 2,300 students with a graduation rate of 
92 percent. 90 percent of the graduates earned college credit 
with 40 percent earning more than a year of college credit. 
More than one student out of ten earned an associate's degree 
or two years or college credit.
    Despite the severe retrenchment in the state budgets, a 
number of states have continued significant investments in 
early college and even appropriated new investments. North 
Carolina leads the nation with 69 early colleges. New York 
state recently established a program to create 22. Michigan has 
made a substantial investment in early colleges to develop its 
workforce in the fields of allied health. Texas is also 
planning to open additional early colleges, adding to the 29 
that are already in existence.
    The early evidence indicates that early colleges are 
fulfilling their mission. By changing the structure of high 
school and compressing the number of years to a college degree 
and removing financial and other barriers to college, early 
college high schools will increase the number of 
underrepresented youth who attain a postsecondary degree. Thank 
you.
    Chairman Kildee. Thank you very much, Dr. Webb.
    [The statement of Mr. Webb follows:]

Prepared Statement of Dr. Michael Webb, Associate Vice President, Early 
College High School Initiative, Jobs for the Future, Early College High 
              School Initiative Student Information System

    Dear Chairman Dale E. Kildee and members of the Committee: I am 
pleased to have the opportunity to testify today before the Committee 
on Education and Labor on the issue of ``High School/College Dual 
Enrollment Programs.''
    My testimony today will build upon the experience of the Early 
College High School Initiative, a national effort to significantly 
increase the number of underrepresented students who attain a college 
degree.
    I am associate vice president at Jobs for the Future. Through 
research, action, and advocacy, JFF develops promising education and 
labor market models that enable American families and companies to 
compete in a global economy.
Higher Education Attainment is Lagging
    As Education Secretary Arne Duncan noted recently, ``Only 38 
percent of young workers have a college degree, a lower percentage than 
nine other countries, and no higher than a generation ago.'' It is a 
sad reality today that one-third of high school students don't 
graduate, and more than half leave high school unprepared for college-
level academics. Yet, as the United States pulls itself out of the most 
severe financial crisis since the Great Depression, it is the level of 
preparation of our workforce that will ultimately determine our 
economic strength and ability to compete in a global economy.
    Gaps in educational attainment are caused by failures at critical 
points. For every ten students who start high school, approximately 
two-thirds will get a diploma, and five will enroll in a postsecondary 
institution. Fewer than three will complete a Bachelor's degree within 
ten years. The statistics for students of color are far worse, with 
just over half of African-Americans and Latinos completing a high 
school credential.
    However, completing high school is not enough to compete in today's 
economy. A high school diploma will no longer enable a young person to 
gain a decent paying career. A four-year college graduate earns two-
thirds more than a high school graduate does. An Associate's degree 
translates into earnings significantly higher than those earned by an 
individual with a high school diploma alone.
Preparation, Support, and Success in Higher Education
    Early college schools are small schools designed so that students 
can earn both a high school diploma and up to two years of college 
credit or an Associate's degree. The Early College High School 
Initiative began with a captivating, though radical, concept: 
challenge, not remediation will make a difference for those young 
people who are least likely to attend college and for whom society 
often has low aspirations for academic achievement.
    The philosophy behind this approach is grounded in the expectation 
that most students have the intellectual ability to succeed in college. 
What many students do not have--particularly students whose parents did 
not go to college--are college expectations, meaningful college 
exposure, sufficient academic rigor in their K-12 classes, and the 
habits of mind required for college success.
    To make the early college proposition succeed, secondary and 
postsecondary partners have had to rethink traditional curriculum 
sequences, find creative ways to align and connect high school and 
college experiences, and provide the academic and social supports 
students need to succeed in an intensive early college program. The 
Bill & Melinda Gates Foundation has provided significant start-up and 
implementation funding for the initiative. Carnegie Corporation of New 
York, the Ford Foundation, and the W.K Kellogg Foundation also provided 
early funding.
    The first year of college is a critical time. For many students, 
the lack of adequate preparation in high school means the need for 
remedial, non-credit courses. Ultimately, this means wasted money and 
time and results in low college completion rates. Early college schools 
help to compress the time to a college degree and provide support to 
help students transition to and through the first year or two of 
college without the need for remediation.
Strengthening the Pipeline to and Through College
    Today, the number of early college schools has grown from 3 during 
the 2002-03 school year to more than 200 early college schools in 24 
states. The schools enroll 42,000 students. Half the students are the 
first in their family to attend college. Nearly 60 percent qualify for 
the free-or reduced-lunch program. Three-fourths are students of color. 
A number of schools include the middle grades in order to begin 
rigorous academic preparation at an earlier age.
    Though the initiative is young, we are seeing significant 
successes. In 2008, early college schools open 4 or more years 
graduated nearly 2,300 students, with a graduation rate of 92 percent. 
Ninety percent of the graduates earned college credit, with 40% earning 
more than a year of college credits. More than one student out of 10 
earned an Associate's degree or two years of college credit.
    Based on emerging data, early college graduates are likely to 
immediately enroll in college at rates higher than other high school 
graduates. In the first study of enrollment patterns, 89 percent of 
early college graduates enrolled in college right after graduation, 
compared to 67 percent of a nationally representative sample of 
graduates taken from the National Education Longitudinal Study (NELS).
    Early college students tend to be low-income and students of color, 
characteristics that correlate with low college-going rates. Yet, this 
same study showed that early college graduates were nearly 65% more 
likely to enroll in college immediately after graduation than students 
in the lowest economic quartile in the NELS sample.
    Early college graduates also enrolled in four-year colleges at 
rates higher than low-income graduates in the NELS study. Enrollment in 
four-year colleges is a predictor of greater success in attaining a 
Bachelor's degree.
The Power of Place
    More than half of early college schools are located on a college 
campus. Two-thirds are located on a two-year college campus. Schools 
not located on a college campus include in their design activities to 
create and reinforce the college experience for their students.
    Talk with any students attending an early college school on a 
college campus and it will soon be clear that there is a positive 
effect brought about by the location. Expectations for student 
behavior, recognition, and a sense of belonging all contribute to the 
development of students' college-going identity. This is particularly 
important for students who lack the tradition of college going in their 
family and community.
In Lean Times, A Growing Investment
    Despite the severe retrenchment in state budgets, a number of 
states have continued significant investments in early college and even 
appropriated new investments. North Carolina leads the nation with 69 
early college schools. New York State recently established a program to 
create 22 early college schools. Michigan has made a substantial 
investment in early colleges to develop its workforce in the fields of 
allied health. Texas is also planning to open additional early college 
schools, adding to the 29 that are already in existence.
    The evidence supporting the growth of early college schools 
continues to build. Jobs for the Future has established a Student 
Information System to provide data on the progress and outcomes of 
early college students and their schools. With three graduating classes 
of significant numbers, JFF is also tracking postsecondary enrollment 
of graduates as they progress through higher education.
    The early evidence indicates that early colleges are fulfilling 
their mission. By changing the structure of high school, compressing 
the number of years to a college degree, and removing financial and 
other barriers to college, early college schools will increase the 
number of underrepresented youth who attain a postsecondary degree.
                                 ______
                                 
    Chairman Kildee. Now we'll have some questions. I recognize 
myself first for five minutes.
    Dr. Lotfi and Dr. Shaink, these students are able to 
accomplish what they're accomplishing through the services you 
provide in cooperation you have with the school districts, and 
they do that without paying any fee. How do you fund--Dr. Lotfi 
first, how do you fund those programs, where would you find the 
dollars for that?
    Mr. Lotfi. The Genesee Early College is actually owned and 
operated by the Genesee Intermediate Schools, so the students 
do come with funding from the states that they would have 
otherwise received if they would have been attending a regular 
high school, so there is some degree of funding to support 
them. I'm not completely convinced that that is sufficient 
because obviously the Genesee Early College program has got an 
enhanced program, so they do come with certain degree of the 
funding. And I'll leave it to Dr. Svitkovich to perhaps comment 
more on that.
    Mr. Svitkovich. If I may, Mr. Kildee?
    Chairman Kildee. Yes.
    Mr. Svitkovich. They have a foundational allowance that we 
get through the----
    Chairman Kildee. Hold your microphone a little closer, 
please?
    Mr. Svitkovich. They get the foundational allowance through 
the City of Flint. Now, our partner, fiscal agent, is the Flint 
Community Schools, so the high school student we have at 
Genesee Early is funded identically to any other high school 
student in Michigan.
    We take that money and we use it in a couple of ways; one, 
we have to pay for the high school operations, and two, we have 
to pay the college tuition that U of M charges for the college 
courses. We're fortunate that University of Michigan-Flint here 
does special consideration to give us some breaks. They also 
provide us space and security and all the facility kinds of 
things that a normal school would be paying on their own, so 
there is a partnership here.
    The issue that comes up, and both he and I agree on this, 
is there just isn't enough funding to make it work for both 
partners, and that's why we've been existing with our initial 
startup grant. Mott Foundation has been generous with us to 
help us along the way, but as you know, the Mott Foundation 
will do--they won't operate a program but they will get us 
started, so that's why we look to the Fast Track to College Act 
to fill the void that will certainly come at a later date.
    Chairman Kildee. Dr. Shaink, do you want to----
    Mr. Shaink. Yes. Well, both our gentlemen explained the 
issue from the perspective of tuition and also Dr. Svitkovich 
did talk about the fact that each of our university and college 
does give in-kind services. We provide the space, we provide 
the security, we provide some of the other things and we're 
very proud and pleased to do that because we just see--the 
important thing is to see what it does for our students and the 
outcome, if they had not attended one of our middle or early 
colleges where would they be, and we're just excited to see the 
outcome and how successful they are because of that partnership 
we have.
    Chairman Kildee. My bill would authorize $140 million over 
six years. You already are in place, you're one of the 
pioneers, Flint's one of the pioneers, your program is 
certainly one of the pioneers. As a matter of fact, when the 
president spoke to us the other night Lamar Alexander came in 
just before the president and I shook hands with him also, and 
he mentioned his visit to Flint, mentioned this program. So 
you're already a pioneer in this.
    If we were to authorize and appropriate this $140 million 
under my bill, how would you use that? Could you use it to--
more than just increase the number of students, could you make 
improvements in the program? Maybe both Dr. Lotfi and Dr. 
Shaink could respond to that. Are there improvements you can 
find in the program or keep the continuity maybe smoother or 
try to recruit even more?
    Mr. Shaink. Absolutely there is, and one of the things 
though, we would look to our partner and to the middle college 
administration. They are always continuously improving their 
curriculum and that's the area that we can really improve on in 
the services that are provided to the students. We would--at 
this point we look at not necessarily recruiting more students 
at this particular high school because we feel that there is 
power to have a smaller-size program, we have 400.
    But what it can do is provide more staff and more 
counselors, more faculty, and--that are working back and forth, 
so yes, we can always use that, but technology is improving and 
we look at the technology that we can provide. Those are always 
challenges for any of us, and that money would be able to 
provide that.
    Chairman Kildee. Dr. Lotfi, is there any special training 
or education you can give to your college people who are more 
used to dealing with older students when they deal with the 
younger students? Is there some orientation for those teachers?
    Mr. Lotfi. Absolutely. Actually we have discovered some 
synergies that really were not expected. For instance, in the 
Genesee Early College by the second year we discovered some 
need for additional tutorial services for some of the students. 
Some select students who needed extra help, the GEC high school 
students. So what we have done is we have taken our best and 
brightest college students and employed them. We have hired 
them to serve as tutors for the GEC high school students and 
the tutorial services, so that's one discovery.
    But certainly we can provide additional support services 
both in terms of professional development for our own faculty 
because these students are--when they take college credit 
courses they are not distinguished when they are sitting in an 
average college level class as GEC students. The faculty don't 
necessarily know that these are GEC students as opposed to our 
own freshman or sophomore student. So definitely we could use 
some support for professional development, but also we are 
delighted to discover that some of the more higher-achieving 
GEC students by the 13th year they are now tutoring our college 
students. For example, the Welsh daughters that I mentioned, 
Kathryn and Kristy, have completed the 40 credit hours and they 
were such advanced in chemistry, taking organic chemistry, they 
have now been hired by the chemistry department to provide 
tutorial services by the college students. But certainly these 
are really synergistic developments that we are just 
discovering as we are moving forward, and we could use support 
for professional development and additional support services 
for the students.
    Chairman Kildee. Thank you very much. I see my time for the 
first round has expired. Mr. Payne.
    Mr. Payne. Thank you very much. I thank each of the 
witnesses for your fine testimony. I would like to find out 
from the administrators of the program, each of--any one of the 
three of you that are involved with it could answer.
    The--how is the funding--is there a--is it set up as a 
normal high school and funding from the regular school budget 
for that particular town or is it funds that are--come from--
I'm just kind of more interested in how you work the funding 
out?
    Mr. Svitkovich. There are students--they are high school 
students, so in Michigan every school district gets a per pupil 
from the State to operate their particular programs, and it's 
called foundation allowance. Therefore, since the Flint 
Community Schools is our fiscal agent for both Mott Middle 
College and Genesee Early College, we or Genesee ISD, the 
service agency for this region, get the foundation allowance 
for the operation of both the early college and the middle 
college, just like Flint would get the foundation allowance for 
the operation of one of their own schools, and that's the first 
step.
    We pay the governmental rate, of course, for the handling 
and doing all the processing of the paperwork. That's not 
enough and has never been enough to be able to support college 
tuition and the high school curriculum even though the colleges 
have given us space, security, technology support. We've worked 
together in terms of staff development, these kinds of things. 
It still has not been enough.
    So there are additional dollars that both the intermediate 
school district finds to support the program. One good example 
would be we use some of our career tech money to support an 
internship that goes on at Mott Middle College where all 
students have to have a realtime job intern experience.
    We use some of that same career tech funding to support 
clinicals that occur in the hospitals with our Genesee early 
college students, so it's an expensive program because of the 
power of the place, and it doesn't work like a traditional high 
school.
    In my experience I have always found that if you give a 
per-pupil allocation there are some students that are not going 
to use or need that full allocation, and that money can be 
shifted to more expensive students. That has occurred 
traditionally, especially in special education, and I know 
members of the Congress are very much aware of all of the 
additional costs for special education students.
    This is very much a similar program because there are such 
external costs. And as I mentioned in my testimony, the whole 
notion of this program being on a four-year campus makes it 
much more expensive and that's why it's so unique, because the 
majority of middle colleges and early colleges do indeed exist 
on a community college campus.
    But many students who want to become physicians aren't 
interested in starting their career in a community college 
setting, so that's why we shifted to the four-year institution, 
because they wanted to start their career in a college setting, 
university setting.
    Mr. Payne. Yes?
    Mr. Lotfi. I think the per-pupil concept was really 
designed to support the students throughout the high school 
life of four years with 20 credit hours or whatever it may be. 
It was not designed--the per-pupil funding has not been 
designed to pay for instructional expenses for the additional 
60 credit hours that they have for college. Early on we 
discovered that, and in order to be a good partner with the 
Genesee Intermediate Schools on our campus we decided to 
subsidize that, but we can only do this subsidy to a very 
limited extent. It is not sufficient to a full-blown version, 
and so we made special considerations for the Genesee Early 
College as when they dual enroll in our university college 
courses not to charge them the full tuition.
    Mr. Payne. Thank you very much. Thank you.
    Chairman Kildee. And the gentleman from Texas.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    My first question is to Dr. Shaink. There you are.
    Mr. Shaink. Yes.
    Mr. Hinojosa. As a program designed to help at-risk youth 
does the Mott Middle College use some type of early warning 
indicator system to identify individuals who might be at risk 
of falling behind or dropping out of the program?
    Mr. Shaink. Absolutely. Right from the very beginning one 
of the things that I've been impressed with is how the staff 
administrators interview the students and also work with 
families. And one of the key things is working with families 
because it's not just changing one--a student's life, it's 
changing the entire family's life.
    And so there's conversation from the very beginning of what 
the expectations are when coming on campus, that they are in an 
adult setting and that they--not only they, the student, but 
also their families, are expected to uphold that expectation, 
and so that's really clear.
    In addition to that, because of the size of the program--in 
our case 400, maximum 400--faculty and staff are able to really 
work on a one-to-one basis with each of the students. They 
treat them not as just a student, they look at the entire whole 
of the student, their life. And so many of the at-risk students 
that come to us have life issues, and so it's important on a 
day-to-day basis to keep in touch with the student and how 
they're doing.
    I know, having been a former high school teacher, and I 
know that that is what they do, they just check on the students 
as they come in, well, how are you doing, Johnny.
    Mr. Hinojosa. May I ask you a question regarding this? I 
like what I hear from you, but give me an estimate of how many 
of your minority students are dropping out and not finishing 
this program, African-American children, what percentage, and 
Hispanic students, how many are not graduating?
    Mr. Shaink. If I can't give you that information right now, 
we will get that to you. We do have one of the----
    Mr. Hinojosa. If I could get the answer to that later----
    Mr. Shaink. You surely can.
    Mr. Hinojosa. My time is running out and I want to ask more 
questions.
    Chairman Kildee. We'll keep the record open for 14 days for 
additional testimony.
    Mr. Hinojosa. Excellent. I'd like to ask Mr.--is it 
pronounced Skorcz?
    Mr. Skorcz. Skorcz.
    Mr. Hinojosa. What role did the Greater Flint Health 
Coalition play in the proposal phase of this Genesee Early 
College?
    Mr. Skorcz. Yes. The healthcare sector in the Greater Flint 
Health Coalition specifically were involved in the planning and 
helped create the partnership to support the early college. We 
would eventually also be part of the advisory committee that 
continues to advise the early college. For example, recently 
there's been a discussion on internships, and what we did was 
the hospitals helped define those internships so that they 
would be an asset to the program and added value to the types 
of internships that should occur.
    Mr. Hinojosa. I think your program will be greatly needed 
if we are to be able to give health insurance policies to some 
45, 47 million more people who are uninsured, and so the need 
to produce allied health workers, particularly nurses and 
physicians' helpers, those who can help primary care doctors, 
would be greatly needed. And I would ask is there a way that 
you all are tracking the students that go through your program?
    Mr. Skorcz. Well, really the early college is tracking 
those programs. We do have as a Greater Flint Health Coalition 
something called the Flint Healthcare Employment Opportunities, 
which is a different older population in the community, people 
who haven't worked for many years, entry-level people, people 
who are in entry-level jobs currently in healthcare who wish to 
get additional credits to get promoted. And by that we hope to 
increase the slots available at the entry level, and more 
recently we've had a grant from the Department of Labor for 
dislocated workers, especially auto industry.
    Mr. Hinojosa. That's very important, sir. My last question 
goes to Mr. Brooks.
    Mr. Brooks, do you feel that minority students are being 
helped to have accessibility and to be able to afford higher 
education, those that you are mentoring and helping out?
    Mr. Brooks. Yes, I do, and that's because not only is it 
free college but the support that the teachers give us, they 
give us the mindset that we can go farther and do better as 
individuals, not just as students.
    Mr. Hinojosa. Please let them know that the House of 
Representatives just passed a bill yesterday which we are 
sending to the Senate, and it--if it passes the Senate and the 
President signs it, there will be $80 billion over the next ten 
years to help in terms of the accessibility and affordability 
for all students to go to colleges and universities.
    The Pell grant will go up. It was 4,000 just two years ago. 
It will be 5,700, and it will go to 6,900 in just a few years. 
So we have direct student--we will have under this bill direct 
government loans with a very low interest rate and there will 
be no reason to not have the money necessary to pursue a 
college education. With that I yield back.
    Chairman Kildee. Mr. Hinojosa is being very humble. The 
landmark bill that passed yesterday emerged from his 
subcommittee, from his mind and his heart. He worked very hard 
on that bill. It had to be a very happy day for you yesterday 
when that bill passed.
    Mr. Hinojosa. It was. I did somersaults after the vote.
    Chairman Kildee. I let him handle higher education, I do K-
12, but on this we see how the two come together. We've 
demonstrated it here in Genesee County, we put it together. I 
would like to replicate this throughout the country. If people 
want to see how these programs work, let them come to Flint and 
Genesee County. We've got it here. Thank you very much. The 
gentlelady from Hawaii.
    Ms. Hirono. Thank you very much. Since this program is very 
much focused on helping at-risk students to be able to succeed 
in high school and also college and in life, how do you go 
about identifying the students who should be encouraged to 
participate in this program? Any of you can respond to that.
    Mr. Svitkovich. There's a partnership. There are 21 
constituent districts, there are K-12 districts here in Genesee 
County serving our 80,000 students. They have all approved 
these programs as legitimate alternative-school programs, plus 
neighboring counties also have an access to the programs as 
well. And when students meet the criteria, either in the middle 
college because they're at risk of dropping out--you heard the 
grade point statistics I'm sure that were shocking to you--but 
they're having a difficult time in a traditional high school. 
Then they either look at one of several alternatives.
    They may be running an alternative program within their own 
district. There may be another opportunity. The Baker College--
Julianne Princinsky was introduced earlier, president of Baker 
College--has a career academy that operates on a similar basis. 
That might be an option for them. Or there's an application 
process for the Mott Middle College. If the student meets the 
criteria and can fit, then they're off and running, and the 
same process occurs with the Genesee Early College. So it's a 
professional to professional relationship as well as 
advertisements directly to the parents because if you were 
watching our local TV or watching--or listening to local radio 
or reading our local press, you would find out about the 
Genesee Early College or Mott Middle College as an opportunity 
for your student. So that's pretty much the way it occurs.
    Ms. Hirono. So--excuse me. So what you're describing is a 
range of options that a student, at-risk student, would have. 
You know, you said if a student meets the criteria for MCC 
then----
    Mr. Svitkovich. The process goes.
    Ms. Hirono. So what's the criteria particularly for----
    Mr. Svitkovich. First of all, they have to have some 
difficulty in the traditional school. They're either--most of 
the time they've already dropped out. Two, they have to have 
some ability to be able to perform in an environment. There has 
to be a potential there.
    Ms. Hirono. How do you determine that?
    Mr. Svitkovich. The leadership of the school has a rubric 
that they run through, and it's pretty effective. They can make 
a selection that works well. For the most part students that 
apply are accepted because they do meet the criteria in both 
cases.
    Mr. Lotfi. In the case of Genesee Early College I think the 
genius is in the admission process, which includes a personal 
interview. It is a little different than the way we admit our 
regular university students. In this case students are 
interviewed so they could not necessarily have a 3.5 GPA to 
automatically get into a university, and having a relatively 
lower GPA, but the principal, the counselors, they analyze 
their transcripts, and more importantly, they interview each 
and every one, because in order to become part of the GEC, the 
Genesee Early College program, at least on our campus, they 
have to give up certain things. For example if they want to 
play football they can't do that because we do not have a 
football team. So we want to make sure that student is really 
committed to coming here and going through that sacrifice, 
giving up certain amenities that they would have in their high 
school, in return earning 60 transferable free college credits.
    And our--statistically we are very young, obviously. We are 
in our third year, so we have not graduated our first cohort 
yet, but we have tremendous success in terms of dropout, we 
have less than a couple of percent.
    Ms. Hirono. And that dropout rate is low not because you're 
kind of cherry picking them?
    Mr. Lotfi. No, absolutely not.
    Ms. Hirono. In terms of trying to replicate this program, 
because it sounds like a program that's very successful, what 
are the most important factors that would go toward some other 
state replicating your program?
    Mr. Shaink. Well, I would say it's really on the design 
principles, and you have a handout, the design principles, and 
that really is the basis of making sure that it does focus on 
the at-risk students. And I agree that it's the interview 
process, it's the process that--what we get excited about is 
we're actually taking at-risk youth and we are turning them 
around, as we've indicated, from 1.6 to a 3.1 grade point 
average, and we're not just cherry picking. And the family and 
the student has really got to want to be in that position.
    Ms. Hirono. Has anybody from Hawaii come to visit you? Not 
yet?
    Mr. Lotfi. But we would love to have them.
    Mr. Svitkovich. We'd love to visit Hawaii and give you the 
information. Have us over.
    Mr. Shaink. January?
    Ms. Hirono. Thank you.
    Chairman Kildee. Thank you, Ms. Hirono.
    Dr. Webb, Congress in the last few years has been moving 
around, touching, twisting, turning over the problem of 
transfer of credits from one higher education unit to another. 
We have not done really very much on it, but it is our concern, 
we recognize that difficulty. Do students participating in dual 
enrollment face challenges transferring their college credits 
to colleges not affiliated with the program?
    Mr. Webb. Absolutely. That's a problem here in Michigan as 
elsewhere in the country. States that have been really 
successful in creating those seamless opportunities for 
students have articulation agreements among at least the public 
institutions, public two-year, four-year, the colleges and 
universities. Articulation agreements would say that for this 
syllabus for this course this will be recognized in all the 
public institutions in the state. It really takes that kind of 
agreement among the higher-education institutions about what 
constitutes the content and request the accountability 
associated with every course and agreement about that in order 
to help create that seamless transfer.
    Where that doesn't exist, then it's ad hoc. It's actually 
haphazard for the student who could earn 60 college credits and 
find that he or she has no place to put them upon graduation 
from high school. So this is really a big problem nationwide, 
and some states, Texas included, California among the two-year 
in the Cal State University system, but not the University of 
California--and other states. Ohio has made some really great 
progress in this area.
    This is an area that I think along with the other issues 
that were mentioned has to be in place for replication. There 
has to be an agreement that at least the state--that the public 
institutions in the state will come to the table to begin the 
process of thinking about articulation transfer agreements.
    Chairman Kildee. Is there a role for either the state 
government to help facilitate those transfer of credits or the 
federal government?
    Mr. Webb. Absolutely. New York state recently announced an 
RFP to create 22 early colleges within the next five years, and 
in order to apply for that the institutions involved, which 
will be primarily public institutions, have to agree that 
they're going to sit down together and they're going to figure 
out how credits will be transferred from one institution to 
another, and that's where the state which is holding the money 
and the state which is authorizing this new program has the 
power to bring folks to the table and from the bully pulpit 
address a really critical issue in early college and a dual 
enrollment in general.
    Chairman Kildee. Well, the power of the dollar could be 
used in both places, could it not?
    Mr. Webb. Absolutely.
    Chairman Kildee. We hesitate to interfere with the autonomy 
of any educational institution of higher education. But when 
there seems to be maybe an unfairness or arbitrariness in not 
accepting transfer, do you think that maybe the use of the 
dollar might encourage them to sit down to the table?
    Mr. Webb. Absolutely. And if they won't go all the way, 
they can think about core courses that will be transferable. 
What is the set of courses, even whether it's a technical set 
of courses or liberal arts set of courses, that everyone will 
agree upon. Let's start with a core set of courses, a core 
curriculum, if you will, that's the place to begin. The 
autonomy is a major issue and not just in Michigan but all 
across the county. State systems don't want to be told by other 
systems which credits they're going to accept, and even 
campuses within the same system don't want to be told but to 
agree upon a set of core courses or core curriculum for 
transfer is one positive step in the right direction.
    Chairman Kildee. Mr. Brooks, can you tell me a little more 
about the mentor program you established at Mott Middle College 
and who helped you establish the program and how many students 
participate?
    Mr. Brooks. Last year we had a certain amount of kids that 
weren't doing too well, and a couple of my teachers came up to 
me and asked what can I do to help make not only the students 
better but the school. So I went home and I thought, and I 
thought of a mentor program because that will not only help the 
students academically but if they don't have the support at 
home or any type of support period, that's what the other peers 
and the other students and the mentors are there to help for.
    And I started it last year, and now I have a co--like a 
coworker type. Her name is Danielle, so she's helping me. And I 
have approximately about 15 students in there right now and I 
still have people signing up, so the program is increasing as 
we speak.
    Chairman Kildee. Thank you very much. My time is expired. 
Mr. Payne.
    Mr. Payne. Thank you.
    Mr. Brooks, say if you went to your normal high school you 
were probably scheduled to go to, how do you think you would be 
doing, do you think you would be doing as well, maybe you have 
the special ability anyway, or do you think the fact that 
you're in a setting you're in gives you the incentive to do 
better and why?
    Mr. Brooks. Academically I would still be successful, but 
what it was is when I changed to Mott Middle College the 
teachers actually cared about the students. It's not like 
they're getting paid to teach and it's another day they have to 
come to work, they are willing to come to work and help the 
students succeed and they want us to be just as successful as 
they are.
    Mr. Payne. Thank you very much.
    Dr. Webb, the--well, let me ask another, perhaps any of 
you--in some--we have some specialized high schools that are 
not this type, but in Newark. What do you think about the 
possibility for a student to go to say Mott Middle College, not 
necessarily having the ability to participate in sports or if 
they--would they be able to be assigned a public high school 
which would have done that, a special school so that they can 
participate? I don't know, maybe, Mr. Brooks, you might know?
    Mr. Webb. Well, nationally that is something that happens 
quite a bit where the comprehensive high school or the high 
school to which the student would have been assigned had he or 
she not gone to early college, is the place where a student can 
go back with permission and participate in activities, sports 
and other activities, the caveat being they have to maintain a 
certain GPA and they have to maintain satisfactory progress in 
their courses in order to continue that. But it's fairly common 
practice because sports is engrained in the American culture 
and even early colleges which hold the promise of so many 
benefits still aren't compelling enough without sports for 
students to feel satisfied with that academic experience.
    Mr. Svitkovich. Mr. Payne, if I may, the specific in 
Michigan is the Michigan High School Athletic Association will 
allow our students at both Genesee Early and Mott Middle to 
participate in high school sports activities with the 
permission of their local district, and that's the catch. Some 
districts do, some districts don't, and that's the issue. And 
the reason they'll allow that is both of these schools, Mott 
Middle and Genesee Early, are considered alterative schools so 
the student can participate in their local districts' programs 
but with the permission of the local district.
    The other part that's challenging to us and extremely 
difficult, the schedule that we have established is not a 
traditional high school schedule. As you know in a traditional 
high school athletic practice happens when the bell rings for 
the most part. Well, there's no bell here, so they're given 
advanced chemistry and they've got to be in their chem lab. So 
those are the kinds of things that inhibit that. There are 
really two avenues, the local district, one, and the fact that 
the structure itself doesn't lend itself easily to that kind of 
thing.
    Mr. Payne. We even have a school in our district that has 
athletic practice before school and they have to be there a 
6:00, 6:30 if they want to participate in sports going to the 
normal school.
    Dr. Webb, this is sort of a general question. We've always 
heard about North Carolina, New York, you know, the states, and 
Michigan now--of course we have to include Michigan--but 
certain states seems like it has more of an initiative. And I 
wonder in your opinion, does that come since education is so 
local, do you think it's the individual governor or what is--I 
know North Carolina had a governor who really took education to 
heart. Even in New Jersey we had to have a decision, a court 
decision, that said all schools had to be funded at the same 
level, and therefore no school district could be funded at a 
higher level.
    So the court, unless we had a constitutional provision that 
was done in the 17--1800's, 1700's, that said every student is 
entitled to a thorough and efficient education, so if the 
student just sued the constitutionality of their school and won 
the case--anyway, what do you see as the spark in North 
Carolina or in New York like this Jersey case?
    Mr. Webb. I think in the same vein that the State of 
Michigan has made a decision about its economic feature and 
what it's going to need to be prosperous, other states have 
made that decision too. In Texas, for example, the leadership 
of the former governor as well as the higher education system 
resulted in the decision to expand early colleges. In New York 
state it really wasn't led by the governor so much as it was by 
legislators and the Department of Education, but in every case 
there's a champion with power that sees that education is 
integrally tied to the economic future.
    But in states where it works very well, it works well 
because there are a set of policies that are conducive to early 
college. For example, in Texas they have something called Hold 
Harmless, so the local district does not lose anything if a 
student is taking high school and college courses. The local 
district gets its full allocation of per-pupil allocation and 
the college gets its full allocation of FTE, and so there's no 
penalty for being a partner in early college.
    In places where it works well, either through waivers or 
through regulations, they put in place a set of policies that 
help to make it work. They deal with the funding issues, they 
deal with transfer of credit, they deal with seat time, which 
is major barrier for many early colleges. If you're taking a 
college course you're not sitting in that seat for the same 
amount of time as you are if you're sitting in a high school 
course, so what does that mean, that the college course is not 
worth as much as the high school course? Of course you know 
that's not the case.
    So in those states where early college is proliferating and 
working the legislators and other officials are really working 
on those policy issues. I think here in Michigan we're seeing 
the same thing, that as Chery Wagonlander mentioned to me 
earlier, one by one they're addressing those barriers to 
effective programming and financing.
    Mr. Payne. Thank you very much.
    Chairman Kildee. Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman, for having another 
round of questions. I want to address a very important question 
that our Chairman Kildee asked, and I will expand in just a 
moment. The question was do students participating in dual-
enrollment programs face the challenges transferring their 
college credits to colleges and universities not affiliated 
with this program.
    I want to get as many students into college, but in looking 
at the college accreditation process that the proprietary 
schools go through versus accredited colleges and universities 
like you have here in Michigan and other states, is it possible 
that your Michigan state higher education coordinating board be 
the group that would tackle this question that he asked so as 
to set the standards at such level that it would be easy to get 
those agreements that colleges and universities would accept 
our students from this early college course program that we are 
discussing? I'd like to ask that of the chancellor.
    Ms. Person. I know I'm not a witness, but if I could help 
answer that in any way, we don't have a higher education--we 
don't have anything like we did--we do in Texas for higher 
education coordinating where there is no one single entity that 
sort of controls all higher education.
    Mr. Hinojosa. If you don't have a similar entity as ours, 
who in the state of Michigan could be that entity who could 
tackle this problem because it's very important?
    Ms. Person. There are probably the couple different 
entities, and I'll yield in a minute to my colleague from the 
community college sector. For the four-year colleges and 
universities, public colleges and universities, we do have a 
president's council, so that's one avenue. And I'll yield to 
Dr. Shaink to speak about the two-year schools.
    Mr. Shaink. To answer your question, all of the students 
who attend Mott Middle College High School take college 
credits, they transfer, period. And the reason why is we--the 
community colleges and the universities along with the K-12 
system fall under the North Central Accreditation. In our case 
it's the higher learning commission is the division of it, so 
we have standards. We work with the public institutions. We 
work across the board to make sure that we have the same 
credential for instructors that we're following. We're working 
with the different universities and colleges to have 
articulation agreements, so in our case we are always aware of 
that, making sure that the courses that they are taking as part 
of the system of working and the power of the site where our 
teachers, our faculty, our counselors can work with the 
teachers and faculty of the high school and with the students.
    Mr. Hinojosa. Please know that we've had field hearings on 
higher education in California, New York, different places, and 
this question, this issue that the chairman asked is very, very 
important. And there's no question that the proprietary school 
student enrollment has quadrupled in just the last five years, 
and it's a multi-billion-dollar business for them.
    And many of the students who are graduating, in my opinion 
at least some of them--I don't know the percentage, but it's 
questionable about the preparation. It seems like there are 
articles in major newspapers that talk about other students 
taking the tests for them because it's done online and a lot of 
cheating on tests, and so it makes their degrees questionable. 
And we do not--we need to have the same type of regulations on 
those proprietary colleges as we have on our public colleges as 
yours.
    And know that when I heard the chairman ask that question I 
said thank you, Mr. Chairman, for bringing that up because it 
certainly did come up in the field hearing we had from east 
coast to west coast. So with that, Mr. Chairman, I yield back. 
My time has run out.
    Chairman Kildee. Thank you very much. The gentle lady from 
Hawaii.
    Ms. Hirono. Thank you. There's no question that a caring, 
competent and qualified teacher is really foundational to the 
success of any classroom and the students, so Mr. Brooks has 
mentioned several times how important the teachers are in this 
program. And my question is who gets to teach in your program, 
how do you find them, what do you pay them, do they get more, 
do they get special kind of training, do you need teachers with 
particular kinds of attitudes to be part of this program?
    Mr. Svitkovich. The question is since we're the employer of 
all those teachers, first of all, they have to meet the highly-
qualified standard and they have to meet the certification 
standards in the state of Michigan, so those are given as a 
point. And I'm thinking of a particular teacher as I describe 
this to you.
    I knew this teacher for, oh, at least three years before he 
came to work for us, and I knew him when he was a high school 
student and I knew him from a standpoint of how he looked, how 
he acted, what his intellect was, what his interests were. And 
when we finally got him into the process and interviewed him--
and our process requires a committee interview of staff, 
interview of the administration, ending with a private 
interview with me that is truly an interview, so there are many 
steps that a person goes through.
    This teacher is extremely successful at Mott Middle 
College, and I would consider him one of our best, for he was a 
graduate of Mott Middle College, and he would not--if he were 
here testifying today he would tell you that I would not have 
graduated from high school had I not had the opportunity to go 
to Mott Middle College for the same reasons that this young man 
explained. And he became an excellent candidate.
    And those are the kinds of people that we look for. We look 
for people that are highly skilled, highly trained and are 
very, very empathetic and understanding within the work force. 
They also have to take on additional responsibilities for 
continuous improvement, staff development, stand evaluations, 
all of the things that I would consider normal.
    But it's not for everyone, and we take a great deal of time 
in selecting the right person to perform, and we've done a good 
job with that. Our principals are excellent in looking for 
candidates. We do pay well.
    Ms. Hirono. Do you pay better than----
    Mr. Svitkovich. The general salary schedule of the Genesee 
Intermediate School District--and we employ teachers--is not 
the highest in this county, but it's certainly not at the 
midpoint.
    Ms. Hirono. And are the teachers union members?
    Mr. Svitkovich. They are union members, they're members of 
the Michigan Education Association. We've developed over the 
years something very different with our union. We have our own 
win-win negotiations process. I have 1,200 employees in my 
school district working on various tasks. The vast majority of 
them are union members. In the last year I don't think I've had 
a grievance come to my level. We have a very positive working 
relationship with our unions and we're able to do the kinds of 
things that make the school extremely successful.
    Ms. Hirono. Anybody else want to add anything further? 
Because of the recruiting, the training, retention of highly-
qualified teachers or effective teachers, as I like to use that 
term, is a huge challenge throughout our school system, and for 
a school like this I would think that you would need some very 
special kinds of teachers who are not only qualified but 
committed. I'd like to see that in every classroom.
    Mr. Lotfi. I would like to just congratulate and 
acknowledge the teachers and the principal of the Genesee Early 
College on our campus because certainly teaching in the Genesee 
Early College is different. My own spouse, by the way, is a 
high school teacher in a local school district, so I'm a little 
bit familiar with it.
    It takes a little bit of extra effort on the part of the 
teachers because of the schedules, so for example, by the time 
the students get to the sophomore level or junior level their 
daily schedule is vastly different than that of the regular 
classroom students that are entered in blocks because they walk 
out to go and take a college class and they come back. So the 
teachers have to be creative in a way that they could schedule 
a chemistry lab or physics lab or biology lab and arrange it so 
they are within the university's schedule as well. So there are 
some complexities and nuances, and these are fantastic 
schoolteachers that we have on our campus and the principal, 
and they have really made this a very, very successful 
experience.
    Mr. Webb. I have something to add to that. The professional 
development is a really important aspect of any successful 
early college. Most early colleges are successful and have 
common planning time, and just like there's a relationship 
among the students, it's very personable and very close, the 
same thing has to happen with the teachers because they're 
starting with a population of students who may not have been 
successful before they came there, so they enter oftentimes 
with issues, some learning issues, personal issues. And so in 
order to make sure that these students are successful teachers 
have to collaborate and talk with each other.
    It's not like traditional education, like the schools I've 
taught in where you go into the classroom, close the door, you 
open up the door when the bell rings, you close it again, and 
you do that all day. Teachers work with each other, they 
collaborate, there's common planning time. And that 
professional development and that common working together, that 
collaborative work is a very important hallmark for 
professional development in early colleges and really 
contributes to success of that school's experience.
    Ms. Hirono. Thank you.
    Chairman Kildee. Thank you very much, Ms. Hirono. The chair 
at its discretion is going to try one more round of questions. 
This has been very, very helpful. We really have people who 
know this issue very well, so I'm going to try one more round 
of questions.
    Let me address the question to Dr. Shaink. In your 
testimony you reference Mott Middle College affective skills 
initiative. What does that initiative entail?
    Mr. Shaink. I would really like to call upon the principal 
who really is engrained in that, but part of the effective 
skills is really working with the high school instructors, 
working with the college instructors to make sure that there's 
an easy transition for a student to be able to know how to take 
the college course. It could be the facts of understanding of 
time management, it could be understanding of the explanation 
of you're going to walk into a class and you're going to have 
to use Blackboard, which is a software package, it could be how 
to hold a discussion in a college course.
    It's really designed to make sure that there's an 
integration between the high school curricula and the college 
curricula so that the student is not surprised. And again, 
that's where the faculty on both parts, both on the high school 
and the college, work together and work with that student and 
keep track and in touch with that student to make sure that 
they're not getting lost and that they are being successful in 
that transition. And I think that's where the power of the 
site, when we talk about where it's located on the college 
campus, that it's easy for their students to have communication 
both ways, so that's really part of that.
    Chairman Kildee. You know, it reminds me when my first 
child was born I really kept telling my wife of this affective 
education part we have to make sure that David has a good 
feeling about himself, and I must have overdone it because one 
day I called from Lansing, the State capital, and I said how is 
David doing today? And she said he has a very good feeling 
about himself today. But I try to do that as to a teacher too.
    Mr. Shaink. And it's more than just academically prepared, 
they also have to be prepared to go in a college environment, 
and that's what both the high school and the college faculty 
help those students to do.
    Chairman Kildee. Has Mott College tracked its graduates 
over the course of the 19 years that you've been in existence, 
do you have a sense of long-term success in the program?
    Mr. Shaink. Yes. In fact, materials, that data that we have 
given you, there are different charts, and one of the charts--
there are several charts--they show the different aspects of 
cores, meaning the classes for the past 16 years. And you can 
see that each year they gain more in number of credits that 
they're taking, number of courses they're taking.
    We're also--they're also tracking the grade point average 
and so that these data sets can be interpreted and improved 
upon, and so we're very mindful of that and Mott Middle College 
is, so if you--I would direct your attention to the charts that 
we have and I would be willing to explain or help to explain 
any of those charts. But yes, we keep track of them and they 
show the progress and it's been successful each and every year.
    Chairman Kildee. The gentleman from New Jersey.
    Mr. Payne. Thank you very much.
    Mr. Brooks, how have you been accepted by your buddies, you 
know, you're out with some of the guys down the street, you 
know, in your neighborhood that don't have a nice suit on like 
you, you know, pull their trousers up a little bit. What's 
going on?
    Mr. Brooks. They still think of me the same because I can 
still clown around and do things, but what it is, I get my work 
done first and I know when it's time. Like I'll take acting and 
drama classes, therefore I have classes where I can be myself 
and I can have fun. And there's a time to learn and there's a 
time to play, so they understand and we have the understanding 
that I'm going to try to be successful and I'm going to try to 
make you successful just as well as I want you to be also.
    Mr. Payne. A great act of ecclesiastics, there's a time for 
all things, right, my spiritual advising.
    Let me ask, let's see, our health professional. Do you 
believe--I think it's Mr. Skorcz--that the kind of--the 
interest that you've taken--since healthcare, you mentioned you 
could go to Washington, you could help us, but aside from that 
do you think that this kind of a program that you're doing here 
should be replicated and isn't it since healthcare--once we put 
this new plan together with the public option to make sure that 
we have more people covered there will be a big need?
    Mr. Skorcz. Yes, absolutely, it could be replicated and 
indeed there's some legislation called Sectors that was 
promoting this Sector workforce nationally. Not only is the 
issue of health reform potentially having incredible impact on 
manpower, those manpower or person power needs exist right now. 
And indeed healthcare in Michigan is the really--the only 
growth area for jobs, so it's a very significant issue.
    I think the success of supporting the academic institutions 
in their training as healthcare professionals is really related 
to this role that I think is fairly unique in this community is 
putting the employers in a key driving mode to define the kinds 
(inaudible) because I think sometimes historically educational 
institutions would gear up to train individuals that training 
would take place and then the field would change. So this whole 
aspect of having healthcare people with real expertise finding 
what the needs are to assist the educational institutions and 
work for its development is beneficial.
    Mr. Payne. Thank you very much.
    Dr. Webb, on your student information system for Jobs for 
the Future have you gotten data yet and have you been able to 
evaluate how students in the early college programs be tracked 
and what's the success rate? How are you doing?
    Mr. Webb. Yes, we have. Now that we have graduates--and 
remember, this is a young program--we've been able to look at 
some of the post early college graduation experiences of kids 
and what we've seen from the limited data that are coming out 
so far from this is that they enroll faster in college after 
they graduate in the nation as a whole.
    We have this long-term study called the National Education 
Longitudinal Study, NELS, that's tracking a group of kids from 
the 8th grade into adulthood, and it's a representative sample, 
so we can compare different things that are happening around 
the country to what's happening with those kids. When we make a 
comparison we see that the kids in early college enroll faster 
and they enroll more often in a four-year institution. 
Enrolling in a four-year institution right after college is a 
greater predictor that you're going to get a B.A. degree than 
if you enroll in a two-years college, so that's what we're 
seeing so far, and particularly among low-income kids, that the 
rate for--and in the written testimony remarks there are some 
statistics about this, but low-income kids don't enroll as fast 
in college after graduation, if they enroll at all, because 
they have to work basically. But early college kids who are 
from low-income families enroll in much greater numbers than 
the national sample of kids do, and they enroll in four-year 
institutions, so we're seeing great success.
    The early college graduation rate for the cohort which 
graduated in 2008 was 92 percent using the federal definition. 
And I'll leave it at that, 92 percent.
    Mr. Payne. Thank you very much. My time's expired.
    Chairman Kildee. Mr. Hinojosa.
    Mr. Hinojosa. Thank you. My friend and colleague, 
Congresswoman from the state of Hawaii, Mazie Hirono, asked the 
question about cost, and I want to follow up a little bit on 
that. How does the cost--and I'll ask this question of Dr. 
Svitkovich. I'd like to ask how does the cost per pupil compare 
for students in the Genesee County's two college--early college 
programs compare to students in the traditional setting?
    Mr. Svitkovich. I can tell you it's the same amount of 
money that we receive, first of all, but it's not the same 
amount of money that's spent.
    Mr. Hinojosa. Would you speak a little louder?
    Mr. Svitkovich. It's the same amount of money we receive 
from the State, but it is not the same amount of money that's 
spent.
    Mr. Hinojosa. Yeah, but you said it was more expensive?
    Mr. Svitkovich. Yes, I did. The reason I said that is we 
have to supplement the existing cost with resources from 
other--from other sources. Right now we're able to get by with 
a grant from the Gates Foundation, we're able to get by with 
some grants from the Mott Foundation, we're able to get by with 
using career tech dollars, and we're able to supplement the 
foundation allowance to make all that money kind of seem to 
work together to make it go.
    Now, understand this, we have no building costs, we have no 
telephone costs, we have no technology costs and we have no 
security costs for the most part.
    Mr. Hinojosa. The good news is that when Chairman Kildee's 
bill passes on No Child Left Behind there will be some money 
but not for all the public schools, but there is hope. So let 
me go to the next question.
    This question is for Dr. Lotfi. How are the teachers 
selected for the college-level courses of Genesee Early College 
and tell me if they're accredited and certified to be able to 
teach advanced placement courses and international 
baccalaureate courses? Speak closer to the mic. I can't hear 
you.
    Mr. Lotfi. The (inaudible) of instructional faculty for the 
students when they are in dual-enrolled college-level courses 
is exactly the same as that of the rest of the university, so 
in fact when the students are taking college-level courses 
there is no distinction between the instructional faculty. So 
high school teachers when they're taking their high school 
classes, as Dr. Svitkovich mentioned, is pretty much the same 
as any other public high school in Michigan.
    Mr. Hinojosa. I understand the answer. Let me just say 
this, that if I want to go teach some undergraduate courses at 
the University of Texas I'm going to show that I have a 
master's degree in the academic course that I'm going to be 
teaching even for the community colleges. So how can these 
teachers who you tell me don't have that additional 
preparation, how can they be teaching courses that we want 
colleges to accept?
    Mr. Lotfi. I beg your pardon, I must have misspoken. When 
they are taking--let's say they are taking a biology course 
that's a college-credit biology course that is offered by our 
own faculty and our practice at the university level is that 
all of our faculty are qualified, so they either have a Ph.D. 
or their last degree to be a faculty at the University of 
Michigan, so that faculty has expertise in biology. If they're 
taking a chemistry course, that faculty has a Ph.D. in 
chemistry. I hope that answers.
    Mr. Svitkovich. In essence there are two faculties, my 
faculty, the high school faculty, and Dr. Lotfi's faculty, the 
college faculty.
    Mr. Hinojosa. Okay. That answers that question. And then 
the next question if there's time--and I'm almost out of time--
would go to Mr. Brooks.
    Have you told your mother that she's a very smart woman?
    Mr. Brooks. Yes, I have.
    Mr. Hinojosa. I come from a family of 11 children and I'm 
the first one--I'm the eighth down the ladder, and I'm the 
first one to graduate from college, from the university, and it 
was my mother who had involved herself with all the children, 
all my brothers and sisters, so that we all graduated from high 
school and half of us from college.
    And did she insist that there be reading to you when you 
were a baby, one-year-old, two, three, four until you were say 
kindergarten? Tell me a little bit about--where did the 
literacy, early reading and writing that you acquired, how did 
that happen?
    Mr. Brooks. It was because of my mother because not only 
did she read to me and things, but she also looked for me to 
get better education, like every school that I went to she 
looked at the ACT scores of the whole school or it's different 
situations that she looked at to see how can my children get a 
better education. So when she heard about Mott Middle College 
and the college and high school at the same time she thought, 
well, since me and my younger sister are doing very well in 
school why don't we try this opportunity to see where it takes 
us. So she made a great decision.
    Mr. Hinojosa. I suspected that that was the case, that's 
why I said she's a very smart woman. Will you go back to your 
mom and you tell her that I send her my praises and that 
Secretary of Education, Arne Duncan, was on the steps of the 
Capitol just Tuesday and talked about this bill that we passed 
yesterday. And there's $8 billion over a ten-year period for 
early education for reading, early reading and writing, from 
cradle to kindergarten, and that's going to be over a ten-year 
period. And so what that tells us is that from the President 
Obama to the secretary to the Congress we're all going to be 
singing the same song, and that is that early reading plus 
writing equals success in school and in college. So you just 
tell her that she was just ahead of most people, okay?
    Mr. Brooks. Yes, sir.
    Mr. Hinojosa. With that I yield back.
    Chairman Kildee. Thank you very much. Ms. Hirono.
    Ms. Hirono. Thank you.
    Dr. Shaink, I'm looking at your design principles, and in 
particular the democratic school governors. Can you describe a 
little bit more what constitutes a purposefully designed 
structure so that everyone's voices can be heard in the 
decision-making process including the designing of curricula, 
and I'd like to know how do the parents get engaged in this 
whole process?
    Mr. Shaink. Yes, and I will always yield to Dr. Svitkovich 
to add to this too, but that is one of the principles of the 
design. And what it is structure for everyone's voice to be 
heard in respect in the decision-making process with regard to 
hiring personnel, managing budgets, determining curricula, 
developing student activities and other policies that affect 
the daily life of students and faculty. And one of the things 
with the Mott Middle College High School is that the faculty, 
staff, administration involve parents all the way, not just at 
the beginning, but throughout the period of time that the 
student is involved. It's very, very critical.
    And, in fact, one of the things that we learn from parents 
and both ways that the faculty can also work with the parent to 
help that individual work with their particular--their child, 
their son or daughter. So yes, that's part of----
    Ms. Hirono. Well, I was interested in the structure. Do you 
have a PTSA or do you meet every other week, how is this 
accomplished?
    Mr. Shaink. I need to talk--we'll let Dr. Svitkovich talk 
about that.
    Mr. Svitkovich. One of the things that happens--remember I 
said earlier that our whole district with our unions have a 
win-win philosophy, that's pretty much what this is based on 
within the school level. From a student's standpoint there's 
something called a FOCUS group which meets on a regular basis 
with groups of kids and each faculty member, same message, 
small group, getting this contact between the faculty and 
students on a regular daily basis. That expands to parents so 
that there's always a contact or a lifeline for the parents 
directly through that process.
    There isn't so much a PTA in the traditional sense of it 
all. It's more of the personal contact and relationship system 
that works and that blossoms out. If you think of it as petals 
of a rose that fall out, and that's how the communication 
system links.
    Ms. Hirono. And I take it the small size of every grade 
level makes a huge difference?
    Mr. Svitkovich. Well, there are 400 students there in 
grades 9 through--well, really 9 through 13, so in some cases 
that is a small school. In others it would be considered a 
fairly good size, but I would consider it small. And that does 
help, but it's also a large geographic area that's an inhibitor 
for us. We take students from this whole county plus outside of 
the county, so there are two things. But we're able to use the 
technology, we're able to establish the communication links and 
we're able to assure that we have a counseling staff that leads 
a lot of the work, to have that happen. There's the interview 
process when they become involved in it. There's the intensive 
communication between student and faculty.
    Ms. Hirono. Do you have a high level of parental 
involvement, because we know that one of the indicators of 
successful schools is where the parental engagement is high, so 
what----
    Mr. Svitkovich. In a lot of our challenge situations I 
don't know if I could say it's a high level of them coming to 
school, but it is a high level when there's a need. It's not 
high level in terms of a structure, but it's high level in 
terms of need.
    Ms. Hirono. Thank you.
    Chairman Kildee. Thank you very much, Ms. Hirono, and thank 
you, Witnesses. This has been a remarkably good hearing. I've 
learned a lot about my home town. I've lived here all my life, 
80 years last Wednesday. I love this town.
    I'm glad that my colleagues on the Education and Labor 
Committee were able to see Flint. We drove them down Saginaw 
Street to let them see how Flint is changing. What they've seen 
is what a great educational system we have here and how you 
integrate between higher ed and from the kindergarten up or 
preschool how it's integrated.
    We have some problems in education in certain areas, but we 
also have so many rich assets and I'm glad that I could share 
with you those assets, with my colleagues. So I thank you for 
that. I thank you for what you're doing. You are the most 
important profession. You have real obligations and you assume 
those obligations. I think you know being called to education 
and/or health is like a vocation, it's a calling, and it 
attracts a certain type of people who really are concerned 
about other people.
    I've got to make one personal provision and do something 
that I ordinarily don't do. This gentleman right here could 
have flown home today to the accolades of his district because 
yesterday from his subcommittee emerged and was passed on the 
floor of the House one of the greatest higher education bills 
since the GI Bill of Rights was passed, and thank you for 
coming here rather than going home, I appreciate that very 
much.
    Mr. Hinojosa. If I may answer that, Mr. Chairman, I had 
accepted the invitation to come two weeks ago when you extended 
it, and yes, I was hoping that I could go back home and talk to 
our community and share with them what's the contents of this 
bill, which as he said, it's a big, big thing because it's 
bigger than the GI Bill of 1944, and it's far more complete. It 
starts with educating children from the cradle and goes all the 
way up through higher education, graduate school, professional 
schools and so forth.
    So I came because I believe that the work that you're doing 
in having these field hearings will enrich the databank of 
information that we have to work with to improve No Child Left 
Behind, and this hearing today is going to be one of the 
hearings and the data of the hearings that will be used. And I 
can assure you, Mr. Chairman, that I've learned a great deal 
just as you made your closing remarks, and we will be there to 
give you the support necessary to include it in the Chairman's 
Mark when you take it to the Committee of the Whole. And thank 
you for inviting me. It's been a pleasure.
    Chairman Kildee. Thank you very much. I have certain 
secretarial matters I have to take care of. As previously 
ordered, members will have 14 calendar days to submit 
additional materials for the hearing record and you may submit 
materials also yourself, Dr. Shaink. You had some information 
you were going to share with us.
    [Additional submissions of Mr. Shaink follow:]

                          MINORITY GROWTH OVERTIME FOR MOTT MIDDLE COLLEGE HIGH SCHOOL
----------------------------------------------------------------------------------------------------------------
                               American
            Year                Indian/      Black     Hispanic    Hawaiian/     White       Total    % Minority
                                Alaskan                             Pacific               Population
----------------------------------------------------------------------------------------------------------------
1998/1999...................          2          58           6           1         171         238         28%
1999/2000...................          4          50           8           0         197         259         24%
2000/2001...................          6          55          11           0         189         261         28%
2001/2002...................          7          64          13           0         154         238         35%
2002/2003...................          6          82           9           1         170         268         37%
2003/2004...................          3          91          15           1         169         279         39%
2004/2005...................          3         103          15           1         202         324         38%
2005/2006...................          4         115          17           1         220         357         38%
2006/2007...................          6         154          21           1         207         389         47%
2007/2008...................          9         171          20           0         184         384         52%
2008/2009...................          6         207          18           0         162         393         59%
----------------------------------------------------------------------------------------------------------------

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    Chairman Kildee. Any member who wishes to submit follow-up 
questions in writing to the witnesses and coordinate with the 
majority staff within the records of time, then without 
objection this hearing is adjourned.
    [Additional submission of Mr. Kildee follows:]

      Prepared Statement of Dr. Julianne T. Princinsky, President,
                             Baker College

Background
    Baker College of Flint is a private, not-for-profit, 501C3, post-
secondary, career-oriented college. Since 1911 the mission and purposes 
are to ``* * * provide quality education and training which enable 
graduates to be successful throughout challenging and rewarding 
careers.'' Baker College of Flint is one campus (nearly 7,000 students) 
within the Baker College System (44,000 students). The campus has been 
a forerunner with regard to dual enrollment and early college 
initiatives with many school districts over the past 15 years and has 
early college initiatives in place in Genesee County and in Michigan's 
Thumb. Likewise, sister campus, Baker College of Owosso, has long-
standing programs in Shiawassee County, and other Baker College 
campuses state-wide have similar arrangements.
    Early on many of Baker College's dual enrollment efforts involved 
an agreement with one K-12 school district at a time. These individual 
collaborations enable qualifying students to participate in several 
ways: 1) by taking college classes at the high school and earning 
advanced placement credit at Baker College; 2) by taking a class at the 
high school that the K-12 district used in lieu of a high school class, 
thus allowing students to gain both high school and Baker College 
credit; and 3) by taking Baker College classes at the College that the 
high school accepted as high school credit as well. It is important to 
note that as Baker is a part of MACROA, earned Baker College credits 
are accepted in like programs at other Michigan Colleges and 
Universities. Students are able to take Baker credits to other 
colleges, if they desire to do so, and if they meet the program 
requirements of the receiving institution, or they simply enter Baker 
College academically, economically, and often socially, well ahead of 
their high school counterparts, who have not taken dual enrollment 
options.
    More recently, as K-12 Districts' interest in providing enhanced 
value to high school students has grown, accompanied by declines in the 
Michigan's K-12 funding, Baker College of Flint has helped to develop 
unique public-private partnerships that include a number of public 
school districts. Currently, in Genesee County Baker College of Flint 
has in place two, more comprehensive, early college initiatives, that 
are well established (one for four years and one for three years) and a 
third initiative in the Thumb of Michigan.
Principles core to Baker College early college successes
    Each Baker College of Flint early college initiative embodies the 
following foundational principles:
    1. Private and public partners, intentionally working together with 
the will to succeed, can build, implement and sustain very effective, 
early college models.
    2. The framework, design, and infrastructure of any early college 
model should be based on leveraging the strengths of each partner 
involved.
    3. The curriculum should at least meet, if not exceed, Michigan's 
rigorous standards, as well as offer a variety of unique student 
experiences that extend well beyond the classroom, and preferably, 
include a relevant, career component/thread in each year of studies.
    4. Faculty and staff should be passionate, not only about their 
subject matter, but also motivated to actively nurture and facilitate a 
multi-faceted learning experience that encourages students, their 
parents, employers, and the community to be fully active in the 
educational process.
    5. Community resources should be researched, sought and used in 
ways that promote mutually beneficial partnerships/collaborations that 
become integral to the students' learning experiences.
    6. Students should be held to high standards; participation in an 
early college is a privilege and students are accountable for their 
learning/achievements/behavior.
    7. Educational partners should share equally in terms of the 
executive leadership and decision making, ensuring ``ownership'' of the 
initiative by all involved.
    8. Each institution and their faculty/staff bring unique resources 
and talents that enable a variety of responses to the who, what, where, 
when, why, how and how much questions; in general, partners should 
commit to seeking common ground, and innovatively finding ways to 
enhance value as they help ``jump start'' students' collegiate level 
studies.
    9. No challenge is too great; all are simply opportunities to 
create ``best practices.''
    10. Normative and summative evaluation is a must; on-going 
assessment is key.
Public/private early college partnerships work!
    With these principles in mind, Baker College of Flint and its K-12 
Public School partners have developed several comprehensive early 
college partnerships. Two of these successful models currently in place 
in Genesee County are described below:

            1. The Three District Consortium Early College Partnership: 
                    (Partners: Linden Community School District, Lake 
                    Fenton Community Schools, and Fenton Area Public 
                    Schools, and Baker College of Flint)

    From 80 to 100 students, primarily Juniors and Seniors, annually, 
attend classes at Baker College of Flint. These students may earn up to 
32 credits per year towards an Associate Degree in Health Sciences, 
Computer Programming, or Automotive Services Technology and in some 
cases, they also earn individual certifications, while they are still 
in high school. The balance of their course work is done at their home 
high school.
    In addition to program and curricula support, Baker College of 
Flint provides access to state of the art laboratories. For the 
Automotive Program, a fully equipped Automotive Services Technology Lab 
is part of the partners' agreement. As that curriculum at the high 
school and college level is mandated by NATEF certification standards, 
for this program only, the instructor is a certified employee of the 
Three District Consortium. That instructor still works closely with the 
certified College faculty, particularly in the lab areas. All other 
dual credit offerings (in all models) are taught by college faculty who 
possess Masters degrees or beyond and/or the credentials required for 
the particular program.
    A unique feature to this program is that the three high schools, 
through their ``Three District Consortium,'' ensure that the high 
school students are bused to the College and then taken back to their 
home school where they are also able to participate in all high school 
activities.
    Under separate cover materials were provided to the sub-committee 
that further detail the variety of curricula offered as well as the 
credit hours possible for participating, dual-enrollment students.

            2. The Carman Park-Baker Career Academy: (Partners: Bendle 
                    Public Schools, Carman Ainsworth Community Schools 
                    and Baker College of Flint)

    This early college initiative is even more comprehensive. The 
partners created a high school under the consortium agreement that 
already existed between Bendle Public Schools and Carman Ainsworth 
Community Schools, which addressed alternative education options. The 
high school is located on the Baker College of Flint Campus in 
collaboration with Bendle Public Schools and Carman Ainsworth Community 
Schools. It is possible because of an agreement by the College to lease 
part of an elementary school that was sitting empty. Currently, Baker 
College of Flint students and The Career Academy students take classes 
in the same building and all have access to the same computer labs, 
etc. Carman Ainsworth was thus able to re-purpose a vacant building and 
the College gained much needed space--while at the same time--all 
partners were able to fully implement a dual enrollment, early college 
initiative, right on the College's campus.
    The Carman Park-Baker Career Academy offers a curriculum that meets 
the state standards for rigor, relevance, and relationships--but also 
helps students gain college credits and hone their career skills at the 
same time. Students participate in work experiences in each year of 
their studies. Students typically begin college courses in their Junior 
and Senior years.
    The curriculum reflects an accelerated approach for combining 
academic excellence with career preparation. The Principal, Diana 
Balbaugh, and the high school faculty and staff ensure that high school 
requirements are met. They work closely with the College 
administration, faculty and staff to ensure that college requirements 
are met as well for those student engaged in college level programs/
courses. An oversight committee meets with the Executive Committee 
periodically throughout the year to evaluate/assess how things are 
going and to recommend changes as necessary.
    The Baker Career Academy has been and continues to be one of the 
Genesee Regional Chamber of Commerce's (GRCC) Teen Quest training 
sites. This enables Career Academy students (and other districts' 
students) to gain summer employment after demonstrating proficiency in 
career ready skills. Via a grant, Baker College of Flint has helped to 
support the Summer Youth Employment Initiative for Genesee County for 
the past several years, while at the same time enabling this 
opportunity to be built into The Academy's programs.
    Currently, in its third year, The Career Academy serves 9th through 
12th grade students. Beginning with 40 plus students the first year, 24 
students earned 102 college credits while in high school; four seniors 
graduated, who also went on to college (three at Baker) in order to 
complete their Associate Degrees. Last year, 2008-2009, there were 60 
plus students; 11 graduates (attending Baker and other colleges); and 
25 students earned 240 credits towards their collegiate-level programs. 
In addition, all of these students experienced a broad array of career-
related, beyond the classroom, hands-on, and often service-learning, 
opportunities. Enrollment is around 80 for 2009-2010 and is projected 
to grow to a maximum of 300.
    In both of these early college ventures, the K-12 districts, 
through their respective consortium's fiscal agents, pay some 
combination of: 1) a discounted tuition per student; 2) program fees, 
where applicable for certain programs; 3) part-time staff 
reimbursement; and/or 4) provide in-kind services. In the case of The 
Career Academy, through the agreement with Carman Ainsworth Community 
Schools, the College provides the full-time Campus Safety and 
Maintenance personnel with the K-12 Consortium covering a portion of 
that cost based on the total rooms in use. In return, the College 
provides access to all services, equipment, facilities, library, health 
and fitness center, tutoring services, and student activities at no 
additional cost.
    These two initiatives have been publicized in the Flint Journal, 
television and radio media, and discussed at the Schools Boards for 
each of the public institutions involved, at the Greater Flint 
Educational Consortium (GFEC), and in Superintendents' meetings. Beyond 
the unique student-centered focus, one of the best aspects of both of 
these partnerships is that each institution involved did their part 
with no additional funding sources. Each institution worked from their 
strengths and found common ground to move beyond what they already had 
in place. Innovation is evident throughout. The benefits for students, 
parents and community--and employers are outstanding.
    There are, of course, many opportunities to further promote and 
support these ``early college'' initiatives in multiple ways--through 
curriculum, staffing, outside support for employers, materials, and 
infrastructure. But so far, much has been accomplished through the 
vision, passion and hard work of the participating institutions' 
faculty, staff, leadership and students--and also--for The Baker Career 
Academy, the involved employers.
    These two examples enumerated above certainly add to Genesee 
County's early college success stories and are as deserving of 
potential funding support as any other. In some ways, perhaps they are 
more deserving, because they represent what can be done well in terms 
of public-private partnerships, where the participants have the will to 
make it work--even without additional funding!
    While not in Genesee County, Baker College of Flint has another 
early college initiative in place in Computer Sciences with the Huron 
Area Technology Center in Bad Axe, and has had it for the past four 
years. The first two years focused on Automotive Services Technology 
Program and the past two years on Computer Science Programs. Students 
come from many of the surrounding districts.
    To gain additional recognition and support for these types of 
initiatives, it is important for legislators to examine the variety of 
models that have an early college foundation. The three mentioned 
above, and described in the materials provided under separate cover, 
prove that unique settings require customized solutions, but they can 
all work. As long as the partners involved have a real propensity to 
leverage resources and to provide a ``jump start'' for our high school 
population, there is room for ``tweaking'' any model, thereby making it 
a great fit for the students, families, communities, and colleges 
involved.

The need for additional funding support is evident
    There are many, very practical ways that legislators can ensure on-
going early college successes. The College stands ready to discuss 
these with any interested legislators/designees. Here, however, are 
five that would provide immediate benefit to both existing and new 
models:
    1. Fund and promote public-private partnerships that demonstrate 
collaboration.
    2. Fund capacity building--including dollars for infrastructure 
needs as well as staffing and curriculum needs--difficult for the 
partners to do at such discounted revenue streams.
    3. Offer ``pilot'' grant opportunities to encourage schools and 
staff to develop and/or implement ``best practice'' models or portions 
of models that would enhance the value of the existing model.
    4. Fund career-oriented activities--including wage stipends to 
employers who agree to employ high school student interns--at least 
part-time.
    5. Fund activities to support those early college initiatives that 
recruit diverse student populations and/or the more ``at risk'' 
student--supported by actual data.
    Baker College of Flint philosophically and practically supports 
early college initiatives. The College is committed to doing all that 
is possible to further such ventures. The benefits are huge and cross 
all levels of the educational system even as they impact many levels in 
the community! In times of scarce resources, as never before, educators 
should be compelled to use them more effectively. Beyond the direct 
benefits of accelerating education there are economic and social 
benefits that promote a stronger, more literate population with 
increased collaboration and commitment among and between all 
constituent parties.
    As a member of the GFEC, Baker College of Flint was and is pleased 
to provide support to the grant requests for the early college 
initiative at UM-Flint. Further, the College has always supported the 
Mott Middle College (MMC) efforts as well. In fact, Baker College of 
Flint enjoys the fact that many of the MMC graduates then attend Baker 
College. And the College has been and continues to be a service 
provider to the Greater Flint Health Coalition dual enrollment efforts.
    Baker College of Flint will provide any additional history, 
brochures, enrollment statistics, etc., that the sub-committee needs to 
further support the Baker College of Flint initiatives referenced 
above.
    In addition, Ms. Peggy Yates, Superintendent of Fenton Area Public 
Schools, which serves as the fiscal agent for the Three District 
Consortium Early College Initiative, and Superintendents, John Angle 
and William Haley, of Bendle Public Schools, fiscal agent for The 
Career Academy, and Carman Ainsworth Community Schools, respectively, 
who serve with me on the Carman Park-Baker Career Academy Executive 
Committee, will also provide additional information.
    We welcome the opportunity to ensure that our legislators, our 
County, and our citizens are fully aware of all of the successful early 
college--fast track to college type--ventures in place, in progress, 
and in the planning stages.
    On behalf of Baker College of Flint, thank you for this opportunity 
to share just a bit of our experience in this area. We hope that it 
will enable more fruitful discourse and support more effective planning 
for the future.
                                 ______
                                 
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
